Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  COMPARING LAB TEST
PAYMENT RATES: MEDICARE
    COULD ACHIEVE
  SUBSTANTIAL SAVINGS




                    Daniel R. Levinson
                     Inspector General

                       June 2013
                     OEI-07-11-00010
EXECUTIVE SUMMARY - COMPARING LAB TEST PAYMENT RATES:
MEDICARE COULD ACHIEVE SUBSTANTIAL SAVINGS
OEI-07-11-00010


WHY WE DID THIS STUDY

Medicare is the largest payer of clinical laboratory (lab) services in the Nation. It paid
approximately $8.2 billion for lab tests in 2010, which accounted for 3 percent of all Medicare
Part B payments. Prior to this evaluation, there had not been a comparison of Medicare
payment rates to those of other health care service payers. Such a comparison will help ensure
that Medicare is a prudent purchaser of lab services.

HOW WE DID THIS STUDY

We collected payment data from 50 State Medicaid programs and 3 Federal Employees Health
Benefits (FEHB) plans that pay for lab tests on a fee-for-service basis. We requested the
payment rates in effect from January 1 through March 31, 2011, for 20 lab tests. For each lab
test in each geographic area represented on the Medicare Clinical Laboratory Fee Schedule
(CLFS), we compared Medicare paid claims with the State Medicaid program fee schedule
amount and FEHB plan median claim payment amounts. We surveyed State Medicaid
programs and FEHB plans to determine how their lab test fee schedules or payment rates were
formulated, whether a copayment was charged to the patient, and whether lab test charges
counted towards a member’s deductible.

WHAT WE FOUND

In 2011, Medicare paid between 18 and 30 percent more than other insurers for
20 high-volume and/or high-expenditure lab tests. Medicare could have saved $910 million, or
38 percent, on these lab tests if it had paid providers at the lowest established rate in each
geographic area. State Medicaid programs and 83 percent of FEHB plans use the Medicare
CLFS as a basis for establishing their own fee schedules and payment rates, although most pay
less. However, unlike Medicare, FEHB programs incorporate factors such as competitor
information, changes in technology used in performing lab tests, and provider requests in their
payment rates. Some State Medicaid programs and FEHB plans required copayments for lab
tests, which, in effect, lowered the costs of lab tests for the insurer.

WHAT WE RECOMMEND

We recommend that the Centers for Medicare & Medicaid Services (CMS) seek legislation that
would allow it to establish lower payment rates for lab tests and consider seeking legislation to
institute copayments and deductibles for lab tests. In its comments, CMS stated that it is
exploring whether it has authority under current statute to revise payments for lab tests
consistent with OIG’s recommendation and that a proposal to establish “deductibles and
coinsurance” for lab tests is not included in the fiscal year 2014 President’s Budget.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................9 

           In 2011, Medicare paid between 18 and 30 percent more for 

           20 lab tests than other insurers.........................................................9 

           Medicare could have saved $910 million in 2011 if it had paid 

           the lowest insurer’s payment rate for 20 lab tests ..........................10 

           Medicare’s payment rate methodology does not take into
           account technological and market changes ....................................10 

           Unlike other insurers reviewed, Medicare does not require 

           copayments and deductibles for lab tests .......................................11

Conclusion and Recommendations ............................................................13 

           Agency Comments and Office of Inspector General Response.....15 

Appendixes ................................................................................................16 

           A: Lab Tests Included in Review ..................................................16 

           B: Comparison of Medicare-Allowed Amounts for Lab Tests 

           With Rates of Other Insurers .........................................................18 

           C: Medicare Clinical Laboratory Fee Schedule, State Medicaid 

           Program Fee Schedule, and Federal Employees Health Benefits 

           Program Median Payment Rates for Selected Laboratory Test 

           Codes..............................................................................................23 

           D: Potential Savings to Medicare .................................................44 

           E: Agency Comments ...................................................................46 

Acknowledgments......................................................................................48 

                  OBJECTIVES
                  To determine:
                  1.	 the extent to which 2011 Medicare payment rates for 20 selected
                      laboratory (lab) tests vary from those of State Medicaid programs and
                      Federal Employees Health Benefits (FEHB) plans,
                  2.	 the amount Medicare could have saved if it had paid a rate equal to the
                      lowest insurer’s payment rate for the 20 selected lab tests,
                  3.	 how the methods for establishing Medicare lab test payment rates vary
                      from those of State Medicaid programs and FEHB plans, and
                  4.	 the extent to which State Medicaid programs and FEHB plans require
                      copayments and deductibles for lab tests.

                  BACKGROUND
                  Medicare is the largest payer of clinical lab services in the Nation. It paid
                  approximately $8.2 billion for lab tests in 2010, which accounted for
                  3 percent of all Medicare Part B payments.1 Prior to this evaluation, there
                  had not been a comparison of Medicare payment rates for clinical lab
                  services with payment rates for other health care service payers. Such a
                  comparison will help ensure that Medicare is a prudent purchaser of lab
                  services. Medicare’s methods for establishing payment rates for lab
                  services have remained largely unchanged since 1984.
                  Medicare Part B Coverage and Payment for Lab Tests
                  Clinical diagnostic lab tests are performed on specimens taken from the
                  human body. Lab tests provide information integral to preventing,
                  diagnosing, and treating disease. Most lab tests are conducted in hospital,
                  physician-office, or independent laboratories. Medicare Part B covers
                  most lab tests and pays 100 percent of allowable charges; Medicare
                  beneficiaries do not pay copayments or deductibles for lab tests.2
                  Each lab submits claims to the Medicare Administrative Contractor
                  (MAC) responsible for the area in which it is located. Although 15 MACs
                  have largely replaced Medicare Part B claims payment carriers (carriers)
                  that corresponded closely to State borders, MACs continue to administer
                  the same payment policies created by the former 57 carriers, as explained
                  below.


                  1
                    Centers for Medicare & Medicaid Services (CMS), Data Compendium: Table II.3. 

                  Accessed at http://www.cms.gov/DataCompendium on June 8, 2012.

                  2
                    Social Security Act (SSA), §§ 1833(a)(1)(D) and (b)(3) and 1866(a)(2)(A).



Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)       1
                  The Clinical Laboratory Fee Schedule
                  Initial Establishment. The Deficit Reduction Act of 1984 (DRA)
                  mandated that payment rates be established for lab tests on a regional,
                  statewide, or carrier basis.3 The DRA also mandated that the Consumer
                  Price Index for All Urban Consumers (CPI-U) be used annually to adjust
                  rates for inflation. Beginning July 1, 1984, each carrier established its
                  own payment rates on the basis of prevailing charges for lab tests in its
                  locality. These payment rates are collectively known as the Clinical
                  Laboratory Fee Schedule (CLFS).
                  National Limitation Amount. The Consolidated Omnibus Budget
                  Reconciliation Act of 1985 mandated a national limitation amount (NLA)
                  for lab tests.4 Between July 1, 1986, and March 31, 1988, the NLA capped
                  carrier rates at 115 percent of the median carrier rate for each lab test.5 For
                  example, if the median carrier rate for a particular lab test was $100, the
                  NLA capped carrier rates at $115. Carriers could establish rates at or
                  below the NLA, but could not exceed it.
                  In an effort to contain costs, from 1988 through 1998, Congress
                  incrementally lowered the NLA as a percentage of the national median
                  carrier rate.6 Since 1998, the NLA has been set at 74 percent of the
                  median carrier rate for each lab test.7 Under the CLFS, MACs pay
                  laboratories the lower of the laboratories’ actual charges or the carrier rate
                  as capped by the NLA.8
                  CMS publishes an updated CLFS at least annually containing payment
                  rates based on the 57 jurisdictions of the former carriers.9 The 2011 CLFS
                  contains the median carrier rate, the NLA, and each carrier’s rate for
                  1,140 unique lab tests identified by the Healthcare Common Procedure




                  3
                    P.L. 98-369, § 2303. 

                  4
                    P.L. 99-272, § 9303(b). 

                  5
                    SSA, § 1833(h)(4)(B)(i).

                  6
                    SSA, § 1833(h)(4)(B).

                  7
                    SSA, § 1833(h)(4)(B)(viii). For new lab tests for which an NLA was not established 

                  before January 1, 2001, the NLA is set at 100 percent of the median. 

                  8
                    SSA, § 1833(a)(1)(D)(i).

                  9
                    The 57 jurisdictions include the 50 States, the District of Columbia, and Puerto Rico. 

                  California, Kansas, and Missouri are each divided into 2 jurisdictions; New York is

                  divided into 3 jurisdictions.



Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)             2
                  Coding System (HCPCS).10 As an example, HCPCS 82607 represents a
                  lab test that checks the level of vitamin B-12 in blood. The median carrier
                  rate for this test is $28.66, and the NLA is 74 percent of this figure, or
                  $21.21. The payment rate for 51 of the carrier jurisdictions is the NLA
                  ($21.21). The payment rates for the remaining six carrier jurisdictions are
                  less than the NLA, ranging from $14.67 to $21.05.
                  Adjustments to the CLFS. Since the establishment of the CLFS, various
                  laws have changed the calculation of the payment rates on the CLFS (see
                  Table 1).
                  Table 1: Adjustments to CLFS Payment Rates for Lab Tests

                   Year      Legislation                  Effect on the CLFS

                             Medicare Prescription
                                                          Eliminated the CPI-U adjustments for 2004 through 2008;
                             Drug, Improvement, and
                                                          mandated that CMS implement a demonstration project to
                   2003      Modernization Act of 2003,
                                                          explore whether competitive bidding could reduce rates for
                             P.L. 108-173, §§ 628 and
                                                          lab tests below Medicare’s fee schedule rates.
                             302(b)
                             Medicare Improvements
                                                          Repealed CMS’s authority for a competitive bidding
                             for Patients and Providers
                   2008                                   demonstration; lowered the CPI-U adjustment by
                             Act of 2008, P.L. 110-275,
                                                          0.5 percentage points from 2009 through 2013.
                             § 145(a) and (b)
                                                          Repealed the 0.5-percentage point reduction in the CPI-U
                                                          beginning in 2011 and replaced it with a reduction equal to
                             Patient Protection and
                                                          the 10-year moving average of annual multifactor
                   2010      Affordable Care Act,
                                                          productivity, which is determined by the Bureau of Labor
                             P.L. 111-148, § 3401(l)
                                                          Statistics; reduced the CLFS by an additional
                                                          1.75 percentage points in years 2011 through 2015.



                  CMS has only limited authority to make adjustments to CLFS payment
                  rates.11 Any additional changes to the CLFS require legislative action.
                  Limits on Medicaid Payment for Lab Tests
                  Section 1903(i)(7) of the SSA prohibits State Medicaid program payments
                  for lab tests that exceed the Medicare payment amount. Chapter 6,

                  10
                     HCPCS Level 1 numerical codes are identical to CPT codes and are used by CMS
                  when services and procedures involve Medicare beneficiaries (e.g., 70405). The five
                  character codes and descriptions included in this report are obtained from Current
                  Procedural Terminology (CPT®), copyright 2011 by the American Medical
                  Association (AMA). CPT is developed by the AMA as a listing of descriptive terms
                  and five character identifying codes and modifiers for reporting medical services
                  and procedures. Any use of CPT outside of this report should refer to the most
                  current version of the Current Procedural Terminology available from
                  AMA. Applicable FARS/DFARS apply.
                  11
                     SSA § 1833(h)(2)(A)(i) provides that the Secretary may make adjustments to CLFS
                  payment rates that are justified by technological changes. SSA § 1833(h)(2)(B) provides
                  for adjustments or exceptions to the CLFS “to assure adequate reimbursement of
                  emergency laboratory tests needed for the provision of bona fide emergency services and
                  certain low-volume high-cost tests where highly sophisticated equipment or extremely
                  skilled personnel are necessary to assure quality.”


Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                     3
                  § 6300.2, of the CMS State Medicaid Manual states that Medicaid
                  reimbursement for clinical diagnostic lab tests may not exceed the amount
                  that Medicare recognizes for such tests. The section provides eight
                  exceptions that pertain to lab tests furnished by certain types of facilities
                  (e.g., hospices) and/or paid for under the end stage renal disease composite
                  rate.
                  FEHB Payment for Lab Tests
                  FEHB plans contract with local plans and provider networks to provide
                  services to members, including lab tests. Within these contracts, FEHB
                  plans negotiate payment rates. Although Federal regulation limits the
                  amount that providers may charge for inpatient hospital and physician
                  services to the Medicare amount, no such limits exist for lab tests.12
                  Related Reports
                  A 2000 Institute of Medicine (IOM) report found that Medicare’s fee
                  schedule for lab tests and its methodology for setting payment rates had
                  not evolved to account for technological and market changes. IOM
                  recommended that Medicare payments for lab tests “be based on a single,
                  rational, national fee schedule” adjusted for geographic location to account
                  for differences in costs of labor and supplies.13
                  In 2009, the Office of Inspector General (OIG) found that 83 percent of
                  carrier payment rates were at the NLA.14 OIG found that the variation in
                  carrier payment rates did not appear to reflect geographic cost differences
                  and that varying methods were used to update carrier payment rates. OIG
                  recommended that CMS seek legislation that would allow it to set accurate
                  and reasonable payment rates for lab tests. In its response, CMS noted
                  that the President’s budget for fiscal year 2010 did not include any
                  proposals for amending the payment methodology for lab tests; therefore,
                  CMS did not concur with this recommendation. CMS further stated that it
                  would consider the recommendation as it continued to monitor the effects
                  of its payment policies. CMS staff confirmed in early 2012 that it had no
                  initiative underway to revamp the payment rate structure for lab tests.

                  METHODOLOGY
                  Scope
                  We evaluated Medicare paid claims for CLFS lab tests during 2011. For
                  CLFS lab tests, we included the top 15 lab tests by volume and by


                  12
                     5 CFR § 890.905.
                  13
                     IOM, Medicare Laboratory Payment Policy: Now and in the Future, January 2000. 

                  Accessed at http://iom.edu/Reports/2000/ on June 8, 2012. 

                  14
                     OIG, Variation in the Clinical Laboratory Fee Schedule, OEI-05-08-00400, July 2009.



Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)         4
                  expenditure in 2010, the most recent data available at the time of our
                  evaluation design. Because of overlap between these 2 groups of lab tests,
                  a total of 20 tests were included in this evaluation. These tests accounted
                  for 47 percent of the volume and 56 percent of the expenditures for CLFS
                  lab tests reimbursed by Medicare in 2010.
                  To ensure equitable comparisons, we compared the Medicare CLFS
                  payment rates only to those under State Medicaid and selected FEHB
                  fee-for-service health care programs. We did not compare Medicare
                  fee-for-service payment rates to rates paid by managed care plans because
                  managed care models typically involve an assumption of financial risk by
                  providers. Also, our comparison of lab test prices used the fee schedule
                  amounts for Medicaid programs and payment rates for FEHB plans. The
                  fee schedule amounts for Medicaid programs and payment rates for FEHB
                  plans do not reflect copayments and deductibles because those are factored
                  in only when claims are paid.
                  Data Collection
                  From August through October 2011, we collected data from 50 State
                  Medicaid programs and 3 fee-for-service FEHB plans.15 We requested the
                  fee schedule amounts or payment rates in effect from January 1 through
                  March 31, 2011, for 20 lab tests, as shown in Appendix A. We surveyed
                  State Medicaid programs and FEHB plans regarding how their lab test fee
                  schedule or payment rates were formulated, whether a copayment was
                  charged to the patient, and whether lab test charges counted towards a
                  member’s deductible.
                  We received fee schedule amounts and survey responses from all 50 State
                  Medicaid programs. State Medicaid programs provided their fee
                  schedules for lab tests, representing the maximum payment rate allowed
                  for each test. (For actual claims, providers could have billed for less than
                  the fee schedule amounts.)
                  We received payment rates and survey responses from the three selected
                  FEHB plans. These three plans provide coverage to 90 percent of
                  fee-for-service enrollees in the FEHB program. Each of these national
                  plans provides services through local plans and networks. Within a single
                  national plan, local plans and networks may have differing payment rates.
                  The FEHB plans provided us with first-quarter 2011 median claim
                  payment amounts representing all of their local plans and networks by

                  15
                    Staff from the Tennessee Medicaid program stated that 100 percent of recipients are
                  enrolled in managed care plans; therefore, Tennessee does not pay for any lab tests on a
                  fee-for-service basis. We did not include the Tennessee Medicaid program in our data
                  collection. We included the District of Columbia, for a total of 50 State Medicaid
                  programs.


Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)               5
                  members’ States of residence. However, they did not provide survey
                  responses regarding how lab test payment rates were formulated for each
                  individual plan or network. In total, we received surveys from 29 of
                  58 FEHB local plans and/or networks.
                  Payment Rate Comparisons
                  We used the population of Medicare claims for 20 lab test codes for tests
                  performed in physician offices and independent laboratories during 2011.
                  For each lab test in each geographic area, we compared the
                  Medicare-allowed amount with the State Medicaid program fee schedule
                  amount and each of the three FEHB plan’s median claim payment rates.16
                  Insurers reported State-specific payment rates; therefore, we were able to
                  make equitable comparisons across States.
                  Our approach provides a conservative estimate of potential savings to the
                  Medicare program because using Medicaid claim payment amounts or an
                  FEHB plan’s lowest rate could produce greater differences in comparison
                  to Medicare-allowed amounts. Table 2 summarizes the data sources used
                  for the comparisons.
                  Table 2: Data Sources Used in Payment Rate Comparisons


                   Insurer       Data Source                    Description


                                 CMS National Claims History
                   Medicare                                     Allowed paid claims during 2011
                                 file

                                                                Fee schedule amounts in effect during the first
                   Medicaid      50 State Medicaid programs
                                                                quarter of 2011
                                                                Median allowed payment rates for claims with
                                 All local plans and networks
                   FEHB                                         dates of service during the first quarter 2011 for
                                 within three FEHB plans
                                                                each of the three FEHB plans
                  Source: OIG data collection, 2012.



                  We reviewed payment rates for 20 lab tests in each of 56 geographic
                  jurisdictions for a total of 1,120 potential comparisons.17 However, not all
                  insurers reported a payment rate for every lab test in each geographic
                  jurisdiction; therefore, the Medicare-allowed amounts used in the
                  comparisons vary by insurer. Table 3 shows the number of tests for which
                  insurers reported payment rates.

                  16
                     We excluded Medicare claims submitted by providers in geographic areas other than
                  the 50 States and the District of Columbia. To ensure equitable comparisons, we
                  excluded claims paid by the contractor that pays claims for the Railroad Retirement
                  Board because this contractor pays claims nationwide rather than in a specific geographic
                  area.
                  17
                     We did not include Puerto Rico in our analysis; therefore, we compared payment rates
                  in 56 of the 57 jurisdictions represented on the Medicare CLFS.


Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                       6
                  Table 3: Number of Lab Test Payment Rates Reported by Insurers and
                  Medicare-Allowed Amount
                                       Number of Lab                        2011
                   Insurer              Test Payment           Medicare-Allowed
                                               Rates                    Amount
                   Medicaid                            1,097        $2,355,233,694

                   FEHB 1                              1,054        $2,406,800,929

                   FEHB 2                              1,082        $2,410,847,338

                   FEHB 3                              1,119        $2,416,397,192
                  Source: OIG data collection, 2012.



                  Savings Calculation
                  We conducted a claim-by-claim analysis to calculate the potential savings
                  to Medicare if it had paid providers at the lowest established rate in each
                  geographic area for each of the 20 reviewed tests. For example, the
                  amount Medicare paid for an iron binding test (HCPCS code 83550)
                  performed in Connecticut was compared with the fee schedule rate for the
                  Connecticut Medicaid program and with the median allowed claim
                  payment rate for each of three FEHB plans for members in Connecticut.
                  Neither the Medicaid nor FEHB plan rates reflected copayments or
                  deductibles because we were using Medicaid fee schedules and FEHB
                  payment rates, not the amounts the program and plans actually paid for
                  these tests. We subtracted the lowest available rate from the
                  Medicare-allowed amount to calculate the potential savings to Medicare
                  for that claim. Table 4 shows this calculation in detail.
                  Table 4: Example Savings Calculation for an Iron Binding Test
                                                                            Lowest                Potential
                   HCPCS                                       Payment
                                         Insurer                           Available             Savings to
                   Code                                           Rate
                                                                               Rate               Medicare
                                         Medicare                $12.30
                                         Medicaid                $11.60
                                                                                         $12.30 minus $7.51
                   83550                 FEHB 1                  $16.60          $7.51
                                                                                                    = $4.79
                                         FEHB 2                  $12.28
                                         FEHB 3                   $7.51

                  Source: OIG data collection, 2012.

                  We summed the savings for each of the claims to calculate the total
                  potential savings to Medicare. If the Medicare claim was paid at or below
                  the lowest available rate, it was not included in the savings calculation.
                  Limitations
                  On the basis of the timing of our data collection, we collected fee schedule
                  amounts and payment rates in effect for the period January 1 through
                  March 31, 2011, from State Medicaid and FEHB programs. We applied
                  these payment rates to Medicare claims for all of 2011. It is possible that



Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                7
                  State Medicaid or FEHB programs obtained different payment rates
                  during April 1 through December 31, 2011, which would produce a
                  different calculation of Medicare savings.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)   8
                  FINDINGS
                  In 2011, Medicare paid between 18 and 30 percent
                  more for 20 lab tests than other insurers
                  We reviewed payment rates for 20 lab tests in each of 56 geographic
                  jurisdictions. Figure 1 shows the dollar amounts that Medicare paid for
                  lab tests in 2011 compared with the dollar amounts that Medicare would
                  have paid if it had paid at the rates that State Medicaid and FEHB plans
                  paid for the same tests on the basis of their fee schedule amounts or
                  payment rates.
                  Figure 1: Comparison of Medicare-Allowed Amounts for Lab Tests With
                  Rates of Other Insurers

                                     $2,500,000,000                       $2.407              $2.411
                                                      $2.355                                                      $2.416
                                                                          Billion             Billion             Billion
                                                      Billion




                                                                                    $2.046
                                                                $1.966              Billion
                                                                Billion
                                     $2,000,000,000
                                                                                                        $1.854              $1.853
                                                                                                        Billion             Billion
                   Allowed Dollars




                                                                                                                                      Medicare-
                                                                                                                                      Allowed Amount

                                     $1,500,000,000
                                                                                                                                      Allowed Amount
                                                                                                                                      When Insurer
                                                                                                                                      Had Lower Price
                                                                                                                                      Than Medicare




                                     $1,000,000,000
                                                         Medicaid            FEHB 1              FEHB 2              FEHB 3
                                                       (20% More)          (18% More)          (30% More)          (30% More)

                                                                             Health Insurers


                   Note: Insurers did not report payment rates for all lab tests in all jurisdictions; therefore, we could not make all 

                   1,120 comparisons for each insurer.

                   Source: OIG data collection, 2012. 


                  When we compared payment rates for specific tests in specific
                  jurisdictions, the smallest price variation in which Medicare paid more
                  than State Medicaid programs for lab tests was $0.01 (HCPCS 85025 in
                  Montana) and the largest price variation was $34.98 (HCPCS 83970 in
                  Kansas). Among FEHB plans, the smallest price variation in which
                  Medicare paid more was $0.01 (HCPCS 80048 in Tennessee) and the
                  largest was $42.27 (HCPCS 83880 in Texas). Appendix B, Tables B-1
                  through B-4, provides more detail on the number of lab tests and allowed
                  amount for each of the 20 reviewed tests for each insurer. For a complete
                  list of payment rates reported by health insurers for this evaluation, see
                  Appendix C.


Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                                                          9
                  Medicare could have saved $910 million in 2011 if it
                  had paid the lowest insurer’s payment rate for 20 lab
                  tests
                  Of the 4 insurers we reviewed, at least 1 paid a lower rate than Medicare
                  on approximately 94 percent of the 1,120 price comparisons we
                  performed. Table 5 shows the distribution of lab tests paid by other
                  insurers in relation to Medicare.
                  Table 5: Lab Tests Paid by Other Insurers in Relation to Medicare

                                        Number and                                                    Number and
                                                                       Number and                                                Number
                                       Percentage of                                                Percentage of
                                                                      Percentage of                                              of Tests
                                          Tests That                                                    Tests That
                   Insurer                                               Tests That                                              Not Paid
                                        Insurer Paid                                                  Insurer Paid
                                                                     Insurer Paid at                                                   by
                                     Above Medicare                                                Below Medicare
                                                                     Medicare Rates                                               Insurer
                                              Rates                                                         Rates
                   Medicaid                  65            6%              95             9%              937          85%                  23

                   FEHB 1                  402            38%                6            1%              646          61%                  66

                   FEHB 2                  486            45%                1          <1%               595          55%                  38

                   FEHB 3                  506            45%                9            1%              604          54%                     1
                  Note: Insurers did not report payment rates for all lab tests in all jurisdictions; therefore, we could not make all 1,120 

                  comparisons for each insurer.

                  Source: OIG data collection, 2012. 




                  If Medicare had paid providers for lab tests at the lowest established rates
                  among the insurers we surveyed, it could have paid 38 percent less, saving
                  $910 million. For example, Medicare paid approximately $348 million for
                  14.8 million commonly performed thyroid function tests (HCPCS Code
                  84443) during 2011. If Medicare had paid providers for these tests at the
                  lowest established rate among the insurers we surveyed, it could have
                  saved approximately $140 million, or 40 percent.18 Appendix D shows the
                  potential savings that Medicare could achieve for each of the 20 tests
                  reviewed using the lowest rate available.

                  Medicare’s payment rate methodology does not take
                  into account technological and market changes
                  Medicare’s payment rates for lab tests were established in 1984 on the
                  basis of prevailing charges for lab tests in each Medicare carrier
                  jurisdiction. Since that time, legislation has revised the rates by making
                  uniform percentage adjustments to every test on the CLFS. CMS has only




                  18
                     Providers submitted, and Medicare paid, a rate lower than the lowest established rate
                  for approximately 296,000 tests.


Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                                            10
                  limited authority to make adjustments to CLFS payment rates.19 Any
                  additional changes to the CLFS require legislative action.
                  As the largest health insurer in the United States, Medicare has great
                  influence on the actions of other health care insurers. For example,
                  Federal law prohibits State Medicaid program payments that exceed the
                  Medicare payment amount for lab tests.20 Eighty-three percent
                  (24 of 29) of responding local FEHB plans and networks reported that
                  they use the Medicare CLFS as a basis for establishing their own fee
                  schedules and payment rates.
                  However, State Medicaid programs and local FEHB plans reported that
                  they consider factors when establishing payment rates for lab tests that
                  Medicare does not consider. For example, eight Medicaid plans and four
                  local FEHB plans reported that technological changes (e.g., benchmarking
                  payment rates for new tests to the actual cost of performing them) are
                  taken into account when establishing payment rates. Thirteen local FEHB
                  plans reported taking into account market considerations, such as
                  competitor information, membership size, and market analysis. Other
                  factors reported by State Medicaid programs and FEHB plans include
                  provider requests to review the adequacy of a payment rate for a certain
                  lab test and legislative and/or budgetary changes.

                  Unlike other insurers reviewed, Medicare does not
                  require copayments and deductibles for lab tests
                  Beneficiaries enrolled in fee-for-service Medicare do not pay copayments
                  for lab tests as they do for other Medicare Part B services (e.g., physician
                  visits), nor are lab tests subject to a deductible.21 In comparison, 11 State
                  Medicaid programs reported requiring copayments for lab tests in at least
                  1 program or recipient category.22
                  The amount of the copayment varied from 50 cents to $10; however,
                  certain recipient categories were exempt from the copayment. For
                  example, the Colorado and Florida State Medicaid programs reported
                  requiring a $1 copayment with exemptions for pregnant women and
                  recipients living in nursing facilities. In other States (e.g., Kentucky and
                  Missouri), the copayment was inclusive of all services rendered by the
                  same provider on a single date of service (e.g., a lab test and a doctor’s
                  office visit).

                  19
                     See note 11.

                  20
                     SSA, § 1903(i)(7). 

                  21
                     SSA, §§ 1833(a)(1)(D) and (b)(3) and 1866(a)(2)(A). 

                  22
                     The 11 State Medicaid programs were Arkansas, Colorado, Florida, Iowa, Kentucky, 

                  Maine, Missouri, New Jersey, New York, South Dakota, and Wisconsin.


Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)        11
                  Each of the three FEHB plans offered multiple coverage options for
                  members, with varying copayment amounts among these options. For
                  example, one FEHB plan’s “standard” coverage option had a copayment
                  of 15 percent of the provider’s allowed charges for lab tests, while another
                  plan’s “basic” coverage option had no copayment. For another FEHB
                  plan’s “high deductible” coverage option, the copayment was a flat $15
                  when the tests were not part of a doctor’s office visit.
                  Two of the three FEHB plans had an option to avoid member copayments
                  by offering “lab cards,” which are issued to members separately from the
                  FEHB plan’s health insurance identification cards. When members went
                  to specified lab collection sites or requested that their physicians send their
                  lab specimens to the specified laboratories, the members incurred no out-
                  of-pocket costs. When members chose to have their lab tests performed
                  elsewhere, the tests were subject to copayments and deductibles.




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)   12
                  CONCLUSION AND RECOMMENDATIONS
                  In 2011, Medicare paid between 18 and 30 percent more for 20 lab tests
                  than other insurers. Medicare could have saved $910 million, or 38
                  percent, in 2011 if it had paid the same rate as the lowest paying insurer
                  surveyed for each lab test in each geographic location. Achieving lower
                  rates is possible because State Medicaid and FEHB lab test providers
                  accepted these lower rates for lab tests.
                  State Medicaid programs and FEHB plans use the Medicare CLFS as a
                  basis for establishing their own fee schedules and payment rates, but most
                  pay less. Unlike Medicare, FEHB programs incorporate factors such as
                  competitor information, changes in technology used in performing lab
                  tests, and provider requests. Some State Medicaid programs and FEHB
                  plans required copayments for lab tests, which, in effect, lowered the costs
                  of lab tests for the insurer.
                  This report builds on previous OIG evaluations regarding lab test payment
                  rates. A 2009 OIG report also recommended changes to the structure of
                  lab test payment rates. In that report, OIG found that 83 percent of carrier
                  payment rates were at the NLA. The variation in carrier payment rates did
                  not appear to reflect geographic cost differences, and varying methods
                  were used to update carrier payment rates. OIG recommended that CMS
                  seek legislation that would allow it to set accurate and reasonable payment
                  rates for lab tests. At that time, CMS did not concur with this
                  recommendation but stated that it would consider the recommendation as
                  it continued to monitor the effects of its payment policies. This report
                  provides further evidence that the lab test payment rate structure is
                  outdated and should be changed.
                  We recommend that CMS:
                  Seek Legislation That Would Allow CMS To Establish Lower
                  Payment Rates for Lab Tests
                  CMS could seek legislation that would provide for cost-saving measures
                  such as:

                      conducting demonstration programs, such as competitive bidding
                       (i.e., soliciting bids from lab test providers to obtain market rates) or
                       entering into provider agreements (i.e., obtaining discounted rates
                       from a small number of providers based on high lab test volume) and
                      including the ability to make adjustments to payment rates on an
                       individual test basis to account for cost decreases due to technological
                       changes and other factors.



Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)     13
                  Consider Seeking Legislation To Institute Copayments and
                  Deductibles for Lab Tests
                  Given that 11 State Medicaid programs and all three FEHB plans require
                  copayments for lab tests in certain circumstances, CMS may want to
                  consider whether copayments and deductibles for lab tests are appropriate
                  for Medicare beneficiaries. We understand that Medicaid programs waive
                  copayments for certain recipient categories and that two FEHB plans offer
                  programs that motivate members to use certain lab test providers to avoid
                  copayments. The concept of beneficiary copayments and deductibles is
                  used broadly for other types of services in Medicare; requiring them could
                  lead to cost savings.




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)   14
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS did not state whether it concurred or nonconcurred with OIG’s
                  recommendations. Regarding the first recommendation, CMS stated that
                  it is exploring whether it has authority under the current statute to revise
                  payments for lab tests consistent with the recommendation. Regarding the
                  second recommendation, CMS stated that legislation would be required to
                  establish “deductibles and coinsurance” for lab tests and that such a
                  proposal is not included in the fiscal year 2014 President’s Budget. We
                  ask that in its final management decision, CMS more clearly indicate
                  whether it concurs with our recommendations and what steps, if any, it
                  will take to implement them.
                  We did not make any changes to the report based on CMS’s comments.
                  The full text of CMS’s comments is provided in Appendix E.




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)   15
                     APPENDIX A
                     Lab Tests Included in Review
                                               Number       Percentage                     Percentage          2011
                                                                               Total
                                                     of           of All                      of Total     Medicare
                                                                           Medicare-
 HCPCS*                                       Medicare-      Medicare-                      Medicare-       National
                Description                                                 Allowed
 Code23                                        Allowed         Allowed                        Allowed     Limitation
                                                                           Amount in
                                               Tests in        Tests in                     Amount in       Amount
                                                                                2010
                                                   2010            2010                           2010      per Test
                Metabolic panel, total
 80048                                          9,355,762          2.3%     $94,325,286           1.9%           $11.91
                calcium
                Comprehensive metabolic
 80053                                         27,232,042          6.6%    $319,935,253           6.5%           $14.87
                panel
 80061          Lipid panel                    20,970,947          5.1%    $310,596,151           6.3%           $18.85
                Urinalysis, automated,
 81001                                          6,709,626          1.6%     $30,435,748           0.6%            $4.45
                with microscopy
                Urinalysis, nonautomated,
 81002                                          4,416,987          1.1%     $16,008,487           0.3%            $3.60
                without microscopy
                Urinalysis, automated,
 81003                                          4,805,501          1.2%     $15,435,365           0.3%            $3.16
                without microscopy
 82306          Vitamin D, 25 hydroxy           5,333,420          1.3%    $223,366,966           4.6%           $41.66

 82570          Assay of urine creatinine       4,362,909          1.1%     $32,023,975           0.7%            $7.28

 82607          Vitamin B-12                    3,334,018          0.8%     $71,897,559           1.5%           $21.21

 82728          Assay of ferritin               4,361,621          1.1%     $84,963,813           1.7%           $19.17
                Glycosylated hemoglobin
 83036                                         12,652,264          3.0%    $175,307,639           3.6%           $13.66
                test
 83540          Assay of iron                   5,455,091          1.3%     $49,960,956           1.0%            $9.12

 83550          Iron binding test               4,297,065          1.0%     $52,653,538           1.1%           $12.30

 83880          Natriuretic peptide             1,135,239          0.3%     $54,491,238           1.1%           $47.77

 83970          Assay of parathormone           3,582,472          0.9%    $211,655,094           4.3%           $58.08
*Healthcare Common Procedure Coding System.                                                        continued on next page




                     23
                       HCPCS Level 1 numerical codes are identical to CPT codes and are used by CMS
                     when services and procedures involve Medicare beneficiaries (e.g., 70405). The five
                     character codes and descriptions included in this report are obtained from Current
                     Procedural Terminology (CPT®), copyright 2011 by the American Medical
                     Association (AMA). CPT is developed by the AMA as a listing of descriptive terms
                     and five character identifying codes and modifiers for reporting medical services
                     and procedures. Any use of CPT outside of this report should refer to the most
                     current version of the Current Procedural Terminology available from
                     AMA. Applicable FARS/DFARS apply.




 Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)             16
                        Lab Tests Included in Review (Continued)
                                                     Number            Percentage                            Percentage         2011
                                                                                                 Total
                                                           of                of All                             of Total    Medicare
                                                                                             Medicare-
 HCPCS                                              Medicare-           Medicare-                             Medicare-      National
                  Description                                                                 Allowed
 Code                                                Allowed              Allowed                               Allowed    Limitation
                                                                                             Amount in
                                                     Tests in             Tests in                            Amount in      Amount
                                                                                                  2010
                                                         2010                 2010                                  2010     per Test
                  Assay of prostate-specific
 84153                                                 3,651,490                  0.9%         $96,028,772          2.0%        $25.89
                  antigen, total
                  Thyroid stimulating
 84443                                                14,728,086                  3.5%        $353,395,445          7.2%        $23.64
                  hormone
                  Complete blood count
 85025            with automated differential         31,930,801                  7.7%        $351,630,565          7.2%        $10.94
                  white blood cell count
 85610            Prothrombin time                    22,020,091                  5.3%        $123,445,269          2.5%         $5.53

 87086            Urine culture colony count           4,610,965                  1.1%         $53,112,711          1.1%        $11.36

     Total                                          194,946,397                  47.0%      $2,720,669,830         55.5%          N/A
Source: Centers for Medicare & Medicaid Services National Claims History Part B Carrier File, 2012.




 Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                            17
                     APPENDIX B
                     Comparison of Medicare-Allowed Amounts for Lab Tests With
                     Rates of Other Insurers
                   Table B-1: Comparison of Medicare-Allowed Amounts for Lab Tests With State
                   Medicaid Program Rates
                                                             Number
                                                                          Allowed Percentage
                                        2011         2011    of Tests
                                                                        Amount If     Medicare
 HCPCS*                           Number of    Medicare-         With
                Description                                              Medicaid    Paid More
 Code24                             Allowed      Allowed    Potential
                                                                           Lowest          Than
                                       Tests     Amount           for
                                                                       Rate Used      Medicaid
                                                             Savings
                Metabolic panel, total
 80048                                         8,622,383    $85,612,322    5,668,213      $75,265,426               14%
                calcium
                Comprehensive
 80053                                        26,667,106   $308,060,147   13,365,771     $279,044,002               10%
                metabolic panel
 80061          Lipid panel                   20,096,974   $293,294,006    9,799,707     $254,514,132               15%
                Urinalysis, automated,
 81001                                         6,636,868    $29,518,138    6,307,849      $25,392,723               16%
                with microscopy
                Urinalysis,
 81002          nonautomated,                  4,153,597    $14,808,195    3,980,171      $11,481,389               29%
                without microscopy
                Urinalysis, automated,
 81003                                         4,808,096    $15,157,960    4,530,759      $12,590,841               20%
                without microscopy
 82306          Vitamin D, 25 hydroxy          5,308,512   $218,018,917    5,200,763     $173,834,730               25%
                Assay of urine
 82570                                         4,432,117    $31,958,084    4,274,416      $26,437,934               21%
                creatinine
 82607          Vitamin B-12                   3,283,484    $69,600,580    3,208,218      $54,998,544               27%

 82728          Assay of ferritin              2,343,336    $44,791,773    2,285,840      $36,235,474               24%
                Glycosylated
 83036                                        12,374,324   $168,495,108   11,889,154     $139,534,720               21%
                hemoglobin test
 83540          Assay of iron                  2,573,826    $22,783,202    2,416,826      $17,777,978               28%

 83550          Iron binding test              2,001,213    $24,090,743    1,952,675      $18,554,959               30%

 83880          Natriuretic peptide             982,145     $46,274,487     947,719       $38,836,439               19%
                Assay of
 83970                                         1,131,955    $65,699,438    1,103,363      $54,696,192               20%
                parathormone
                Assay of prostate-
 84153                                         3,530,885    $91,280,209    3,415,111      $78,423,161               16%
                specific antigen, total
*Healthcare Common Procedure Coding System.                                                        continued on next page




                     24
                       HCPCS Level 1 numerical codes are identical to CPT codes and are used by CMS
                     when services and procedures involve Medicare beneficiaries (e.g., 70405). The five
                     character codes and descriptions included in this report are obtained from Current
                     Procedural Terminology (CPT®), copyright 2011 by the American Medical
                     Association (AMA). CPT is developed by the AMA as a listing of descriptive terms
                     and five character identifying codes and modifiers for reporting medical services
                     and procedures. Any use of CPT outside of this report should refer to the most
                     current version of the Current Procedural Terminology available from
                     AMA. Applicable FARS/DFARS apply.


 Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)               18
                     Table B-1: Comparison of Medicare-Allowed Amounts for Lab Tests With State
                     Medicaid Program Rates (Continued)
                                                               Number
                                                                            Allowed Percentage
                                         2011          2011    of Tests
                                                                          Amount If     Medicare
 HCPCS                             Number of     Medicare-         With
                  Description                                              Medicaid    Paid More
 Code                                Allowed       Allowed    Potential
                                                                             Lowest          Than
                                        Tests      Amount           for
                                                                         Rate Used      Medicaid
                                                               Savings
                  Thyroid stimulating
 84443                                             14,431,323        $340,218,728          13,470,738          $278,608,047         22%
                  hormone
                  Complete blood count
                  with automated
 85025                                             29,982,902        $324,139,981          28,708,580          $256,024,097         27%
                  differential white blood
                  cell count
 85610            Prothrombin time                 19,778,756        $109,118,351          18,595,275           $90,002,308         21%
                  Urine culture colony
 87086                                              4,622,255          $52,313,325          4,523,417           $43,254,698         21%
                  count
    Total                                        177,762,057       $2,355,233,694        145,644,565          $1,965,507,794        20%
Dollar amounts are rounded to the nearest $1. 

Source: Centers for Medicare & Medicaid Services (CMS), National Claims History Part B Carrier File, 2012.





 Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                                19
                     Table B-2: Comparison of Medicare-Allowed Amounts for Lab Tests With
                     Federal Employees Health Benefits Plan 1 Rates
                                                                Number
                                                                            Allowed Percentage
                                         2011          2011     of Tests
                                                                           Amount If      Medicare
 HCPCS                             Number of     Medicare-          With
                  Description                                               FEHB* 1     Paid More
 Code                                Allowed       Allowed     Potential
                                                                         Lowest Rate         Than
                                        Tests      Amount            for
                                                                               Used        FEHB 1
                                                                Savings
                  Metabolic panel, total
 80048                                              8,845,138       $87,510,028      4,014,472     $79,233,694         10%
                  calcium
                  Comprehensive
 80053                                             27,383,560      $315,644,951     12,603,839    $285,465,515         11%
                  metabolic panel
 80061            Lipid panel                      20,582,622      $299,733,323     12,236,042    $264,780,532         13%
                  Urinalysis, automated,
 81001                                              6,745,292       $29,999,388      5,393,503     $21,605,942         39%
                  with microscopy
                  Urinalysis,
 81002            nonautomated,                     4,298,157       $15,328,388       858,224      $14,827,898         3%
                  without microscopy
                  Urinalysis, automated,
 81003                                              5,058,767       $15,955,168      3,097,997     $13,384,927         19%
                  without microscopy
 82306            Vitamin D, 25 hydroxy             5,375,495      $220,809,451      4,791,414    $195,628,854         13%
                  Assay of urine
 82570                                              4,599,040       $33,172,982      4,101,514     $28,388,052         17%
                  creatinine
 82607            Vitamin B-12                      3,348,724       $70,984,263      3,098,644     $57,669,263         23%

 82728            Assay of ferritin                 2,390,169       $45,708,890      1,873,378     $38,683,459         18%
                  Glycosylated
 83036                                             12,652,717      $172,332,541     11,637,788    $146,644,964         18%
                  hemoglobin test
 83540            Assay of iron                     2,610,331       $23,119,240      2,191,250     $19,978,006         16%

 83550            Iron binding test                 2,029,047       $24,437,035      1,665,647     $20,793,342         18%

 83880            Natriuretic peptide               1,005,678       $47,600,430       616,946      $46,896,600         2%
                  Assay of
 83970                                              1,144,866       $66,449,427       802,171      $57,235,817         16%
                  parathormone
                  Assay of prostate-
 84153                                              3,610,064       $93,330,561      3,382,894     $69,756,354         34%
                  specific antigen, total
                  Thyroid stimulating
 84443                                             14,736,021      $347,421,480     11,997,260    $256,475,682         35%
                  hormone
                  Complete blood count
                  with automated
 85025                                             30,778,859      $332,847,257     20,154,289    $277,782,489         20%
                  differential white blood
                  cell count
 85610            Prothrombin time                 20,202,185      $111,459,803     11,817,701     $97,932,459         14%
                  Urine culture colony
 87086                                              4,675,245       $52,956,323       249,964      $52,816,302         <1%
                  count
    Total                                        182,071,977      $2,406,800,929   116,584,937   $2,045,980,151        18%
*Federal Employees Health Benefits Plan. 

Dollar amounts are rounded to the nearest $1. 

Source: CMS National Claims History Part B Carrier File, 2012.





 Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                   20
                     Table B-3: Comparison of Medicare-Allowed Amounts for Lab Tests With
                     FEHB 2 Rates
                                                               Number
                                                                            Allowed Percentage
                                         2011          2011    of Tests
                                                                          Amount If     Medicare
 HCPCS                             Number of     Medicare-         With
                  Description                                               FEHB 2     Paid More
 Code                                Allowed       Allowed    Potential
                                                                             Lowest         Than
                                        Tests      Amount           for
                                                                         Rate Used        FEHB 2
                                                               Savings
                  Metabolic panel, total
 80048                                              8,868,300       $87,691,704      6,406,107     $56,925,617         54%
                  calcium
                  Comprehensive
 80053                                             27,406,336      $315,878,919     23,616,591    $190,298,975         66%
                  metabolic panel
 80061            Lipid panel                      20,620,917      $300,263,670     17,830,508    $181,050,752         66%
                  Urinalysis, automated,
 81001                                              6,803,822       $30,259,846      5,013,009     $27,272,462         11%
                  with microscopy
                  Urinalysis,
 81002            nonautomated,                     4,312,499       $15,380,015       801,000      $14,659,027         5%
                  without microscopy
                  Urinalysis, automated,
 81003                                              5,071,508       $15,995,094      2,423,151     $15,081,085         6%
                  without microscopy
 82306            Vitamin D, 25 hydroxy             5,394,422      $221,597,882             1     $221,597,881         <1%
                  Assay of urine
 82570                                              4,630,130       $33,399,315       234,400      $33,218,013         1%
                  creatinine
 82607            Vitamin B-12                      3,354,340       $71,103,569      2,647,056     $67,236,703         6%

 82728            Assay of ferritin                 2,388,723       $45,681,170      2,215,722     $39,589,293         15%
                  Glycosylated
 83036                                             12,678,817      $172,653,909     10,844,674    $158,505,857         9%
                  hemoglobin test
 83540            Assay of iron                     2,611,112       $23,123,274      2,377,920     $13,725,941         68%

 83550            Iron binding test                 2,030,349       $24,449,112      1,606,576     $24,139,181         1%

 83880            Natriuretic peptide               1,003,642       $47,301,371        37,291      $47,200,413         <1%
                  Assay of
 83970                                              1,140,880       $66,217,932      1,033,874     $52,503,547         26%
                  parathormone
                  Assay of prostate-
 84153                                              3,616,338       $93,492,483      3,299,294     $75,992,390         23%
                  specific antigen, total
                  Thyroid stimulating
 84443                                             14,761,102      $348,014,395     13,578,188    $238,945,858         46%
                  hormone
                  Complete blood count
                  with automated
 85025                                             30,827,609      $333,380,573     22,581,252    $240,858,678         38%
                  differential white blood
                  cell count
 85610            Prothrombin time                 20,250,842      $111,728,873      9,901,125    $107,226,128         4%
                  Urine culture colony
 87086                                              4,703,253       $53,234,232      4,376,383     $47,958,561         11%
                  count
    Total                                        182,474,941      $2,410,847,338   130,824,122   $1,853,986,362        30%
Dollar amounts are rounded to the nearest $1. 

Source: CMS National Claims History Part B Carrier File, 2012.





 Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                   21
                     Table B-4: Comparison of Medicare-Allowed Amounts for Lab Tests With
                     FEHB 3 Rates
                                                               Number
                                                                            Allowed Percentage
                                         2011          2011    of Tests
                                                                          Amount If     Medicare
 HCPCS                             Number of     Medicare-         With
                  Description                                               FEHB 3     Paid More
 Code                                Allowed       Allowed    Potential
                                                                             Lowest         Than
                                        Tests      Amount           for
                                                                         Rate Used        FEHB 3
                                                               Savings
                  Metabolic panel, total
 80048                                              8,870,790       $87,715,544      5,395,466     $67,285,713         30%
                  calcium
                  Comprehensive
 80053                                             27,406,336      $315,878,919     16,006,044    $255,119,055         24%
                  metabolic panel
 80061            Lipid panel                      20,620,917      $300,263,670     11,088,845    $250,104,002         20%
                  Urinalysis, automated,
 81001                                              6,804,619       $30,263,393      4,301,384     $25,300,428         20%
                  with microscopy
                  Urinalysis,
 81002            nonautomated,                     4,312,499       $15,380,015      2,843,481     $13,316,748         15%
                  without microscopy
                  Urinalysis, automated,
 81003                                              5,078,609       $16,012,775      3,061,511     $13,696,536         17%
                  without microscopy
 82306            Vitamin D, 25 hydroxy             5,394,422      $221,597,882      4,916,470    $151,929,883         46%
                  Assay of urine
 82570                                              4,649,643       $33,541,369      3,644,077     $25,746,329         30%
                  creatinine
 82607            Vitamin B-12                      3,363,543       $71,298,574      2,999,341     $50,209,954         42%

 82728            Assay of ferritin                 2,401,360       $45,904,070      2,138,522     $32,616,087         41%
                  Glycosylated
 83036                                             12,678,817      $172,653,909      9,693,743    $133,570,423         29%
                  hemoglobin test
 83540            Assay of iron                     2,625,017       $23,249,999      2,261,945     $16,042,910         45%

 83550            Iron binding test                 2,043,113       $24,606,097      1,864,244     $17,182,469         43%

 83880            Natriuretic peptide               1,079,500       $50,924,545       929,185      $37,383,509         36%
                  Assay of
 83970                                              1,154,873       $67,030,516      1,013,627     $47,853,311         40%
                  parathormone
                  Assay of prostate-
 84153                                              3,616,338       $93,492,483      3,061,675     $68,755,732         36%
                  specific antigen, total
                  Thyroid stimulating
 84443                                             14,761,102      $348,014,395     12,759,702    $249,494,146         39%
                  hormone
                  Complete blood count
                  with automated
 85025                                             30,827,609      $333,380,573     24,038,398    $258,080,023         29%
                  differential white blood
                  cell count
 85610            Prothrombin time                 20,291,205      $111,952,080     12,595,842     $97,737,892         15%
                  Urine culture colony
 87086                                              4,703,518       $53,236,384      4,222,236     $41,570,728         28%
                  count
    Total                                        182,683,830      $2,416,397,192   128,835,738   $1,852,995,878        30%
Dollar amounts are rounded to the nearest $1. 

Source: CMS National Claims History Part B Carrier File, 2012.





 Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                   22
                  APPENDIX C
                  Medicare Clinical Laboratory Fee Schedule, State Medicaid
                  Program Fee Schedule, and Federal Employees Health Benefits
                  Program Median Payment Rates for Selected Laboratory Test
                  Codes
                  The following table contains the Medicare Clinical Laboratory Fee
                  Schedule (CLFS) rates and the payment rates reported to us by State
                  Medicaid programs and Federal Employees Health Benefits (FEHB)
                  programs by Healthcare Common Procedure Coding System (HCPCS)25
                  and geographic area.




                  25
                    HCPCS Level 1 numerical codes are identical to CPT codes and are used by CMS
                  when services and procedures involve Medicare beneficiaries (e.g., 70405). The five
                  character codes and descriptions included in this report are obtained from Current
                  Procedural Terminology (CPT®), copyright 2011 by the American Medical
                  Association (AMA). CPT is developed by the AMA as a listing of descriptive terms
                  and five character identifying codes and modifiers for reporting medical services
                  and procedures. Any use of CPT outside of this report should refer to the most
                  current version of the Current Procedural Terminology available from
                  AMA. Applicable FARS/DFARS apply.


Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)     23
                       APPENDIX C
                       Medicare CLFS, State Medicaid Program Fee Schedule, and
                       FEHB Program Median Payment Rates for Selected Laboratory
                       Test Codes (Continued)
 HCPCS                                                                    State
                         Insurer
 Code                                                     AK       AL             AR             AZ           CA
                         Medicare                      $11.91    $11.91      $11.91        $11.91          $11.91
                         Medicaid                      $12.12    $11.00      $12.09        $11.51           $9.27
 80048                   FEHB 1                         $7.10    $12.55      $18.40         $9.58           $9.58
                         FEHB 2                         $4.98    $15.97      $14.54         $4.98           $4.98
                         FEHB 3                        $11.00     $7.88      $15.09         $7.23          $10.28

                         Medicare                      $14.87    $14.87      $14.87        $14.87          $14.87
                         Medicaid                      $15.14    $12.00      $15.10        $14.38          $11.57
 80053                   FEHB 1                        $11.56    $14.00      $18.17        $11.56          $11.56
                         FEHB 2                         $6.19     $8.19      $19.32         $6.19           $6.19
                         FEHB 3                        $43.00     $9.84      $22.16         $9.03          $12.83

                         Medicare                      $18.85    $15.99      $17.89        $18.85          $18.85
                         Medicaid                      $19.19    $14.00      $18.16        $18.23          $13.74
 80061                   FEHB 1                        $13.69    $13.69      $21.85        $13.69          $13.18
                         FEHB 2                         $8.20     $8.20      $21.85         $8.20           $8.20
                         FEHB 3                        $65.00    $11.40      $26.66        $11.44          $16.25

                         Medicare                       $4.45     $4.45       $4.45          $4.45           $4.45
                         Medicaid                       $4.54     $4.00       $4.52          $4.31           $3.47
 81001                   FEHB 1                         $2.74     $2.74       $7.97          $2.74           $2.70
                         FEHB 2                         $5.54     $5.66       $6.65          $5.15           $3.80
                         FEHB 3                        $32.00     $5.50       $6.65          $2.71           $3.84

                         Medicare                       $3.60     $3.60       $3.60          $3.60           $3.60
                         Medicaid                       $3.66     $3.00       $3.66          $3.48           $2.80
 81002                   FEHB 1                           N/A     $7.00       $6.73          $3.75           $5.86
                         FEHB 2                         $5.61     $4.82       $4.39          $4.15           $6.00
                         FEHB 3                        $25.00     $4.50       $5.36          $3.43           $3.11

                         Medicare                       $3.16     $3.16       $3.16          $3.16           $3.16
                         Medicaid                       $3.22     $3.00       $3.20          $3.06           $2.46
 81003                   FEHB 1                         $5.21     $5.00       $5.65          $2.11           $2.19
                         FEHB 2                         $2.85     $4.24       $3.86          $2.85           $3.77
                         FEHB 3                        $29.00     $4.50       $4.71          $1.96           $2.73

                         Medicare                      $41.66    $41.66      $41.66        $32.59          $41.66
                         Medicaid                      $42.40    $29.00      $42.27        $31.51          $24.54
 82306                   FEHB 1                        $34.86    $43.88      $36.21        $36.21          $34.86
                         FEHB 2                        $57.73    $57.73      $57.73        $57.73          $57.73
                         FEHB 3                        $90.00    $33.92      $62.04        $19.77          $35.92

                         Medicare                       $7.28     $7.28       $7.28         $7.28           $7.28
                         Medicaid                       $7.41     $6.00       $7.39         $7.04           $5.27
 82570                   FEHB 1                         $5.79     $7.67       $6.68         $6.02           $6.02
                         FEHB 2                        $13.03     $8.02      $10.85        $10.13          $13.03
                         FEHB 3                        $26.87     $7.59      $10.85         $5.19           $6.28

                         Medicare                      $21.21    $21.21      $21.21        $21.21          $21.21
                         Medicaid                      $21.59    $17.00      $21.52        $20.51          $16.49
 82607                   FEHB 1                        $16.03    $22.34      $23.17        $16.65          $16.65
                         FEHB 2                        $19.71    $28.00      $27.13        $19.71          $19.71
                         FEHB 3                        $36.70    $17.27      $31.59        $12.75          $18.29

                         Medicare                      $19.17    $19.17      $19.17        $19.17          $19.17
                         Medicaid                      $19.51    $13.00      $19.46        $18.53          $14.91
 82728                   FEHB 1                           N/A    $20.19      $23.41        $15.61          $15.61
                         FEHB 2                        $16.38    $16.20      $23.41        $16.38          $16.38
                         FEHB 3                        $20.87    $15.61      $28.55        $11.63          $16.52
Note: “N/A” indicates that no price was reported for the test.                               continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 24
                      Medicare CLFS, State Medicaid Program Fee Schedule, and
                      FEHB Program Median Payment Rates for Selected Laboratory
                      Test Codes (Continued)
 HCPCS                                                                                   State
                       Insurer
 Code                                                   AK                   AL               AR                     AZ                 CA
                       Medicare                      $13.66              $13.66              $13.66              $13.66              $13.66
                       Medicaid                      $13.90              $12.00              $13.87              $13.21              $10.63
 83036                 FEHB 1                        $11.45              $11.45              $14.92              $11.02              $11.24
                       FEHB 2                        $12.35              $14.67              $17.00              $12.35              $12.35
                       FEHB 3                        $61.50              $13.90              $20.34               $8.16              $11.78

                       Medicare                       $9.12                $9.12              $9.12               $9.12               $9.12
                       Medicaid                       $9.28                $7.00              $9.25               $8.82               $7.09
 83540                 FEHB 1                         $7.51                $7.80             $15.60               $7.51               $7.51
                       FEHB 2                         $5.12                $2.10             $11.14               $5.12               $5.12
                       FEHB 3                         $8.35                $5.57             $13.58               $5.53               $7.86

                       Medicare                      $12.30              $12.30              $12.30              $12.30      $9.85/$10.39*
                       Medicaid                      $12.52              $10.00              $12.48              $11.89              $7.88
 83550                 FEHB 1                         $9.57              $12.95              $18.36               $9.57              $9.57
                       FEHB 2                        $12.28               $9.45              $15.02              $12.28             $12.28
                       FEHB 3                        $14.65               $7.51              $18.32               $7.47              $8.97

                       Medicare                     $47.77               $47.77              $47.77             $47.77              $47.77
                       Medicaid                     $48.62               $33.00              $47.43             $46.19              $37.56
 83880                 FEHB 1                          N/A               $61.89              $66.40             $46.76              $47.65
                       FEHB 2                      $106.19              $150.60              $73.57            $122.25             $114.94
                       FEHB 3                       $40.44               $42.75              $17.60             $28.98              $41.19

                       Medicare                      $58.08              $58.08              $58.08              $58.08              $58.08
                       Medicaid                      $59.12              $51.00              $58.94              $56.16              $45.17
 83970                 FEHB 1                           N/A              $61.18              $80.88              $49.47              $86.27
                       FEHB 2                        $44.63              $78.68              $44.63              $44.63              $44.63
                       FEHB 3                        $49.16              $47.30              $86.51              $35.88              $50.09

                       Medicare                     $25.89               $25.89              $25.89              $25.89              $25.89
                       Medicaid                     $26.34               $20.00              $26.27              $25.02              $20.14
 84153                 FEHB 1                       $18.73               $21.85              $38.55              $18.73              $18.03
                       FEHB 2                       $20.48               $20.48              $28.79              $20.48              $20.48
                       FEHB 3                      $109.00               $19.76              $38.55              $15.70              $22.32

                       Medicare                      $23.64              $23.64              $23.64              $23.64              $23.64
                       Medicaid                      $24.06              $23.64              $23.98              $22.86              $18.38
 84443                 FEHB 1                        $16.16              $24.90              $26.47              $16.16              $16.16
                       FEHB 2                        $15.36              $15.36              $28.87              $15.36              $15.36
                       FEHB 3                        $45.00              $19.25              $35.21              $14.28              $20.39

                       Medicare                      $10.94              $10.94              $10.94               $9.03              $10.94
                       Medicaid                      $11.14              $10.00              $11.10               $8.73               $8.50
 85025                 FEHB 1                         $7.67              $11.52              $16.21               $7.67               $7.67
                       FEHB 2                        $10.86              $13.43              $14.00               $5.03               $5.03
                       FEHB 3                        $36.55              $13.00              $16.29               $5.48               $9.43

                       Medicare                       $5.53                $5.53              $5.53               $5.53               $5.53
                       Medicaid                       $5.62                $5.00              $5.61               $5.34               $4.30
 85610                 FEHB 1                         $4.38                $5.82              $8.24               $4.38               $4.38
                       FEHB 2                         $6.60                $7.00              $6.74               $5.12               $5.12
                       FEHB 3                        $35.00                $6.10              $8.24               $3.42               $4.77

                       Medicare                      $11.36              $11.36              $11.36              $11.36              $11.36
                       Medicaid                      $11.57              $10.00              $11.53              $10.99               $7.52
 87086                 FEHB 1                           N/A              $14.46              $20.68              $29.51              $24.50
                       FEHB 2                        $10.45              $10.45              $13.88              $10.45              $10.45
                       FEHB 3                        $37.00              $10.99              $16.92               $6.89               $9.80
                                                                                                                       continued on next page
* Four States (CA, KS, MO, and NY) are divided into multiple Medicare carrier jurisdictions. Each jurisdiction may have a different price for
some HCPCS codes. In jurisdictions where prices differ, differences are signified using “/” between each jurisdiction’s prices.




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                                          25
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                        CO               CT               DC                DE            FL
                   Medicare                $11.91          $11.91          $11.91          $11.91          $11.91
                   Medicaid                $10.52          $11.24           $6.00          $11.67           $8.00
 80048             FEHB 1                   $9.58          $15.84           $9.23           $9.23           $9.58
                   FEHB 2                   $4.98           $4.98           $5.92           $4.98           $4.98
                   FEHB 3                   $5.26           $7.27           $5.04           $7.08           $6.86

                   Medicare                $14.87          $14.87          $14.87          $14.87          $14.87
                   Medicaid                $13.14          $14.03          $12.00          $14.57          $10.00
 80053             FEHB 1                  $11.12          $11.56          $11.12          $11.12          $11.56
                   FEHB 2                   $6.19           $6.19           $6.19           $6.19           $6.19
                   FEHB 3                   $6.61           $9.08           $5.31           $8.85           $8.57

                   Medicare                $18.85          $18.85          $18.85          $18.85          $18.85
                   Medicaid                $16.63          $17.78          $16.75          $18.47           $9.50
 80061             FEHB 1                  $13.18          $13.18          $13.18          $13.18          $13.18
                   FEHB 2                   $8.20           $8.20           $8.20           $8.20           $8.20
                   FEHB 3                   $8.31          $11.51           $8.42          $10.90          $10.86

                   Medicare                 $4.45           $4.45            $4.45           $4.44           $4.45
                   Medicaid                 $3.93           $4.21            $2.00           $4.35           $3.27
 81001             FEHB 1                   $2.74           $2.69            $2.66           $2.69           $2.74
                   FEHB 2                   $3.77           $3.80            $3.80           $3.80           $3.80
                   FEHB 3                   $2.04           $2.72            $1.99           $2.89           $2.57

                   Medicare                 $3.60           $3.60            $3.60           $3.60           $3.60
                   Medicaid                 $3.18           $3.39            $2.00           $3.53           $2.00
 81002             FEHB 1                   $4.64           $5.36            $2.14           $2.68           $3.57
                   FEHB 2                   $2.14           $4.04            $2.24           $2.14           $3.93
                   FEHB 3                   $3.57           $2.97            $2.80           $2.80           $2.87

                   Medicare                 $3.16           $3.16            $3.16           $3.16           $3.16
                   Medicaid                 $2.79           $2.98            $1.00             N/A           $2.50
 81003             FEHB 1                   $2.19           $4.23            $2.11           $3.14           $2.19
                   FEHB 2                   $1.97           $3.38            $2.67           $2.67           $2.85
                   FEHB 3                   $2.74           $2.61            $1.41           $2.09           $2.51

                   Medicare                $41.66          $41.66          $41.66          $41.66          $41.66
                   Medicaid                $36.76          $39.29          $20.00          $40.83          $30.00
 82306             FEHB 1                  $34.86          $34.86          $34.86          $35.54          $34.86
                   FEHB 2                  $57.73          $57.73          $42.50          $57.73          $57.73
                   FEHB 3                  $18.49          $25.44          $18.61          $24.77          $23.99

                   Medicare                 $7.28           $7.28            $7.28          $7.28           $7.28
                   Medicaid                 $6.42           $6.87            $3.00          $7.13           $5.00
 82570             FEHB 1                   $6.02           $6.02            $5.79          $6.50           $6.02
                   FEHB 2                  $13.03          $13.03            $9.07         $13.03          $13.03
                   FEHB 3                   $3.22           $5.10            $3.25          $5.19           $4.19

                   Medicare                $21.21          $21.21          $21.21          $21.21          $21.21
                   Medicaid                $18.72          $20.01          $10.00          $20.79          $15.00
 82607             FEHB 1                  $16.65          $16.03          $16.03          $16.65          $16.03
                   FEHB 2                  $19.71          $19.71          $17.90          $19.71          $19.71
                   FEHB 3                   $9.33          $12.95           $9.48          $12.61          $12.21

                   Medicare                $19.17          $19.17          $19.17          $19.17          $19.17
                   Medicaid                $16.93          $18.08           $9.00          $18.79          $14.00
 82728             FEHB 1                  $15.03          $15.32          $15.03          $15.03          $15.61
                   FEHB 2                  $16.38          $16.38          $16.18          $16.38          $16.38
                   FEHB 3                   $8.48          $11.71           $8.56          $11.40          $11.04
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 26
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                        CO               CT               DC                DE            FL
                   Medicare                $13.66          $13.66          $13.66          $13.66          $13.66
                   Medicaid                $12.07          $12.88           $8.80          $13.39           $9.50
 83036             FEHB 1                  $11.02          $11.24          $11.02          $11.02          $11.02
                   FEHB 2                  $12.35          $12.35          $11.53          $12.35          $12.35
                   FEHB 3                   $6.11           $8.34           $6.10           $8.12           $7.86

                   Medicare                 $9.12           $9.12            $9.12          $9.12            $9.12
                   Medicaid                 $8.05           $8.60            $4.00          $8.94            $5.00
 83540             FEHB 1                   $7.51           $7.51            $7.51          $7.51            $7.80
                   FEHB 2                   $5.12           $5.12            $4.53         $24.89            $5.12
                   FEHB 3                   $4.07           $5.57            $4.07          $6.50            $5.25

                   Medicare                $12.30          $12.30          $12.30          $12.30          $12.30
                   Medicaid                $10.86          $11.60          $12.00          $12.05           $8.50
 83550             FEHB 1                   $9.57          $16.60           $9.57           $9.76           $9.95
                   FEHB 2                  $12.28          $12.28          $10.38          $39.87          $12.28
                   FEHB 3                   $5.43           $7.51           $5.49           $7.32           $7.08

                   Medicare                $45.89          $47.77          $47.77          $47.77          $47.77
                   Medicaid                $40.94          $45.06          $46.81          $46.81             N/A
 83880             FEHB 1                  $47.65             N/A          $46.76             N/A          $45.87
                   FEHB 2                  $52.04         $142.00          $40.32          $40.32         $140.58
                   FEHB 3                  $31.99          $29.17          $26.34          $34.03          $42.75

                   Medicare                $58.08          $58.08          $58.08          $58.08          $58.08
                   Medicaid                $51.27          $54.79          $27.00          $56.92          $40.50
 83970             FEHB 1                  $45.27         $365.90          $45.27          $46.15          $47.03
                   FEHB 2                  $44.63          $44.63          $49.02             N/A          $44.63
                   FEHB 3                  $25.61          $35.47          $31.72          $34.54          $33.45

                   Medicare                $25.89          $25.89          $25.89          $25.89          $25.89
                   Medicaid                $22.85          $24.42          $30.00          $25.37          $21.50
 84153             FEHB 1                  $18.03          $18.03          $18.03          $18.73          $18.03
                   FEHB 2                  $20.48          $20.48          $20.48          $20.48          $20.48
                   FEHB 3                  $11.36          $15.80          $11.57          $15.39          $14.91

                   Medicare                $23.64          $23.64          $23.64          $23.64          $23.64
                   Medicaid                $20.87          $22.30          $13.92          $23.17          $17.50
 84443             FEHB 1                  $15.55          $15.55          $16.16          $15.86          $15.55
                   FEHB 2                  $15.36          $15.36          $15.36          $15.36          $15.36
                   FEHB 3                  $10.52          $14.44          $10.25          $14.06          $13.61

                   Medicare                 $9.94          $10.94          $10.94          $10.94          $10.94
                   Medicaid                 $8.77          $10.32           $5.30          $10.72           $8.00
 85025             FEHB 1                   $7.67          $13.03           $7.38           $7.53           $7.67
                   FEHB 2                   $5.03           $5.03           $5.43           $5.03           $5.03
                   FEHB 3                   $4.41           $8.69           $6.52           $7.10           $6.52

                   Medicare                 $5.53           $5.53            $5.53           $5.53           $5.53
                   Medicaid                 $4.88           $5.22            $3.00           $5.42           $3.50
 85610             FEHB 1                   $5.82           $4.38            $4.22           $4.38           $4.38
                   FEHB 2                   $4.42           $5.12            $4.67           $5.12           $5.31
                   FEHB 3                   $3.73           $4.38            $3.29           $3.93           $4.38

                   Medicare                $11.36          $11.36          $11.36          $11.36          $11.36
                   Medicaid                $10.03          $10.72           $6.00          $11.13           $8.00
 87086             FEHB 1                  $27.50          $22.50          $26.16          $17.00          $24.50
                   FEHB 2                  $10.45          $10.45          $10.45           $9.59          $10.45
                   FEHB 3                   $5.09           $6.94          $10.15           $7.37           $6.54
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 27
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                        GA                HI              IA                ID             IL
                   Medicare                $11.91          $11.91          $11.91          $11.91          $11.91
                   Medicaid                $10.65          $11.70          $11.31          $11.83           $8.28
 80048             FEHB 1                  $12.55           $9.40          $12.31          $13.61          $10.85
                   FEHB 2                   $4.98          $12.93          $25.84          $13.12           $7.28
                   FEHB 3                  $13.01          $16.10          $14.50          $13.33           $4.50

                   Medicare                $14.87          $14.87          $14.87          $14.87          $14.87
                   Medicaid                $13.29          $14.61          $14.13          $14.77          $10.36
 80053             FEHB 1                  $11.56          $22.47          $11.56          $16.35          $14.77
                   FEHB 2                   $6.19          $16.30          $30.60          $12.46           $9.00
                   FEHB 3                  $13.12          $20.10          $18.00          $18.32          $11.16

                   Medicare                $18.85          $18.85          $18.85          $15.96          $18.85
                   Medicaid                $16.85          $18.51          $17.91          $15.85           $6.22
 80061             FEHB 1                  $13.69          $13.69          $13.69          $19.30          $13.69
                   FEHB 2                   $8.20          $20.50          $33.32          $18.72           $8.20
                   FEHB 3                  $18.72          $35.83          $23.00          $19.66          $17.00

                   Medicare                 $4.45           $4.45            $4.45           $4.45           $4.45
                   Medicaid                 $3.99           $4.37            $4.23           $4.43           $2.86
 81001             FEHB 1                   $4.70             N/A            $4.76           $6.87           $4.43
                   FEHB 2                   $5.80           $4.97            $7.87           $7.97           $4.26
                   FEHB 3                   $4.65           $6.00            $5.50           $5.49           $4.50

                   Medicare                 $3.60           $3.60            $3.60           $3.60           $3.60
                   Medicaid                 $3.21           $3.54            $3.42           $3.57           $2.60
 81002             FEHB 1                   $6.59           $4.52            $3.93           $5.53           $4.28
                   FEHB 2                   $5.33           $2.47            $7.24           $6.44           $3.89
                   FEHB 3                   $3.93           $4.61            $4.50           $4.43           $3.00

                   Medicare                 $3.16           $3.16            $3.16           $3.16           $3.16
                   Medicaid                 $2.83           $3.10            $3.00           $3.14           $2.18
 81003             FEHB 1                   $5.24             N/A            $3.85           $3.86           $2.19
                   FEHB 2                   $5.33           $1.88            $5.58           $5.65           $3.02
                   FEHB 3                   $3.22           $3.86            $4.00           $3.90           $3.22

                   Medicare                $41.66          $41.66          $41.66          $41.66          $41.66
                   Medicaid                $37.22          $40.91          $39.58          $41.36           $8.86
 82306             FEHB 1                  $36.21          $69.90          $43.30          $56.11          $36.21
                   FEHB 2                  $57.73          $57.73          $60.41          $57.73          $57.73
                   FEHB 3                  $33.09          $56.25          $51.00          $51.30          $30.00

                   Medicare                 $7.28           $7.28           $7.28           $7.28           $7.28
                   Medicaid                 $6.51           $7.15           $6.92           $7.23           $4.66
 82570             FEHB 1                   $6.02             N/A           $7.61           $9.04           $5.79
                   FEHB 2                  $13.03             N/A          $13.03          $13.03          $13.03
                   FEHB 3                   $7.41           $9.85           $9.00           $8.97           $6.72

                   Medicare                $21.21          $21.21          $21.21          $21.21          $21.21
                   Medicaid                $18.95          $20.83          $20.15          $21.06          $12.00
 82607             FEHB 1                  $16.65             N/A          $21.84          $31.40          $21.06
                   FEHB 2                  $19.71             N/A          $28.60          $19.71          $19.71
                   FEHB 3                  $18.71          $28.65          $26.00          $26.12          $15.00

                   Medicare                $19.17          $16.09          $19.17          $19.17          $19.17
                   Medicaid                $17.13          $15.81          $18.21          $19.03           $7.16
 82728             FEHB 1                  $15.61             N/A          $19.86          $23.79          $20.56
                   FEHB 2                  $16.38             N/A          $33.89          $16.38          $16.38
                   FEHB 3                  $16.91          $21.75          $23.00          $23.61          $14.00
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 28
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                        GA                HI              IA                ID             IL
                   Medicare                $13.66          $13.66          $13.66           $9.84          $13.66
                   Medicaid                $12.20          $13.42          $12.98           $9.77           $6.30
 83036             FEHB 1                  $11.45          $11.45          $14.30          $14.39          $11.45
                   FEHB 2                  $12.35          $15.07          $24.16          $14.66          $12.35
                   FEHB 3                  $13.90          $18.45          $16.50          $12.12          $13.00

                   Medicare                 $9.12           $9.12           $9.12           $9.12            $9.12
                   Medicaid                 $8.15           $8.95           $8.66           $9.05            $6.38
 83540             FEHB 1                   $7.80             N/A           $8.67           $8.15            $9.12
                   FEHB 2                   $5.12             N/A          $16.11           $5.12            $5.47
                   FEHB 3                   $7.24          $12.30          $11.00          $10.03            $6.00

                   Medicare                $12.30          $12.30          $10.60          $12.30          $12.30
                   Medicaid                $10.99          $12.08          $10.07          $12.21           $8.56
 83550             FEHB 1                   $9.95             N/A          $11.33             N/A          $12.30
                   FEHB 2                  $12.28             N/A          $18.76          $12.28          $12.28
                   FEHB 3                  $10.85          $16.60          $13.00          $13.53           $9.00

                   Medicare                $47.77          $47.77          $47.77          $47.77          $39.91
                   Medicaid                $42.69          $28.46          $45.38          $47.43          $14.86
 83880             FEHB 1                  $51.00             N/A          $49.64          $85.00             N/A
                   FEHB 2                 $117.39             N/A             N/A             N/A         $142.00
                   FEHB 3                  $42.75          $28.25          $58.00          $58.83           $4.50

                   Medicare                $58.08          $58.08          $58.08          $58.08          $58.08
                   Medicaid                $51.90          $57.04          $55.18          $57.67          $31.12
 83970             FEHB 1                  $47.03             N/A          $55.94          $70.94          $45.27
                   FEHB 2                  $44.63             N/A          $70.72          $48.27          $48.27
                   FEHB 3                  $45.38          $78.45          $71.00          $65.62          $41.00

                   Medicare                $25.89          $25.89          $25.89          $25.89          $25.89
                   Medicaid                $23.13          $25.42          $24.60          $25.70          $13.20
 84153             FEHB 1                  $18.73          $18.73          $18.73          $29.14          $18.73
                   FEHB 2                  $20.48          $28.79          $42.46          $26.85          $20.48
                   FEHB 3                  $25.70          $34.95          $32.00          $31.87          $18.00

                   Medicare                $23.64          $23.64          $23.64          $22.14          $23.64
                   Medicaid                $21.12          $23.21          $22.46          $21.98          $16.42
 84443             FEHB 1                  $16.16          $38.48          $24.62          $25.99          $16.16
                   FEHB 2                  $15.36          $26.39          $41.78          $15.36          $15.36
                   FEHB 3                  $20.85          $31.90          $29.00          $27.26          $17.00

                   Medicare                $10.94          $10.94          $10.94          $10.94          $10.94
                   Medicaid                 $9.77          $10.74          $10.39          $10.86           $5.74
 85025             FEHB 1                  $13.07          $17.91          $11.52          $13.37          $11.14
                   FEHB 2                  $14.00          $11.94          $19.33          $12.35           $8.06
                   FEHB 3                  $10.86          $14.75          $13.50          $13.48           $5.18

                   Medicare                 $5.53           $5.53           $4.92            $5.53           $5.53
                   Medicaid                 $4.94           $5.43           $4.67            $5.49           $3.82
 85610             FEHB 1                   $8.21             N/A           $6.30            $4.38           $5.62
                   FEHB 2                   $7.41             N/A          $11.97            $9.00           $6.72
                   FEHB 3                   $5.87           $7.45           $6.00            $6.80           $4.50

                   Medicare                $11.36          $11.36          $11.36          $11.36          $11.36
                   Medicaid                $10.15          $11.16          $10.79          $11.28          $10.50
 87086             FEHB 1                  $24.50             N/A          $11.92          $17.48          $21.00
                   FEHB 2                  $10.45          $11.42          $24.00          $20.28          $10.45
                   FEHB 3                  $10.02          $15.35          $14.00          $14.00           $8.12
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 29
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                          IN             KS               KY                LA           MA
                   Medicare                 $8.99          $11.91           $9.43          $11.91          $11.91
                   Medicaid                 $8.83          $10.50           $9.43           $9.61           $8.83
 80048             FEHB 1                   $9.58           $9.23           $9.58          $12.55           $9.58
                   FEHB 2                   $4.98           $4.98          $12.00          $22.23           $4.98
                   FEHB 3                   $5.60          $13.32           $5.11           $2.58          $12.26

                   Medicare                $14.65          $14.87          $11.83          $14.87          $14.87
                   Medicaid                $14.39          $12.48          $11.83          $12.01          $11.03
 80053             FEHB 1                  $11.12          $11.56          $11.56          $11.56          $11.56
                   FEHB 2                   $6.19           $6.19           $6.19          $11.73           $6.19
                   FEHB 3                   $9.12          $13.32           $7.12          $11.36          $16.50

                   Medicare                $18.85          $18.85          $16.02          $16.82          $18.85
                   Medicaid                $18.51          $15.12          $16.02          $12.34          $13.98
 80061             FEHB 1                  $13.18          $13.18          $13.69          $13.69          $13.69
                   FEHB 2                   $8.20           $8.20           $8.20           $8.20           $8.20
                   FEHB 3                  $13.10          $30.82           $7.51          $12.84          $19.86

                   Medicare                 $4.45           $4.45            $4.45           $4.45           $4.45
                   Medicaid                 $4.37           $4.37            $4.45           $3.28           $3.31
 81001             FEHB 1                   $5.32           $2.74            $5.34           $4.87           $2.74
                   FEHB 2                   $4.00           $3.80            $4.76           $7.75           $4.43
                   FEHB 3                   $3.77           $6.94            $3.30           $5.22           $4.74

                   Medicare                 $3.60           $3.60            $3.39           $3.60           $3.60
                   Medicaid                 $3.54           $3.01            $3.39           $2.64           $2.67
 81002             FEHB 1                   $4.32           $2.99            $4.21           $4.61           $5.93
                   FEHB 2                   $4.00           $3.96            $3.69           $6.73           $3.48
                   FEHB 3                   $3.03           $5.80            $2.15           $4.29           $3.57

                   Medicare                 $3.16           $3.16            $3.16           $3.16           $3.16
                   Medicaid                 $3.10           $1.50            $3.16           $2.33           $2.34
 81003             FEHB 1                   $3.79           $2.66            $4.11           $3.58           $3.94
                   FEHB 2                   $3.00           $3.47            $4.26           $5.50           $3.06
                   FEHB 3                   $2.67           $6.94            $1.38           $3.77           $3.51

                   Medicare                $41.66          $41.66          $38.45          $41.66          $41.66
                   Medicaid                $40.91          $10.08          $38.45          $30.59          $30.88
 82306             FEHB 1                  $35.54          $35.54          $36.21          $36.21          $34.86
                   FEHB 2                  $57.73          $57.73          $57.73          $57.73          $57.73
                   FEHB 3                  $25.00          $43.36          $19.53          $31.80          $46.21

                   Medicare                 $7.28           $7.28           $7.28           $7.28           $7.28
                   Medicaid                 $7.15           $6.93           $7.28           $5.35           $5.40
 82570             FEHB 1                   $6.02           $6.02           $7.67           $6.02           $6.02
                   FEHB 2                  $10.61          $13.03          $10.13          $13.03          $13.03
                   FEHB 3                   $4.54           $8.72           $3.20           $6.28           $7.68

                   Medicare                $21.21          $21.21          $21.21          $21.21          $21.05
                   Medicaid                $20.83          $20.83          $21.21          $15.57          $15.61
 82607             FEHB 1                  $16.65          $16.03          $16.03          $16.65          $16.34
                   FEHB 2                  $19.71          $19.71          $19.71          $19.71          $20.04
                   FEHB 3                  $13.21          $22.08          $10.28          $16.19          $23.36

                   Medicare                $19.17          $19.17          $19.17          $19.17          $19.17
                   Medicaid                $18.83          $18.83          $19.17          $14.07          $14.21
 82728             FEHB 1                  $15.48          $15.03          $15.03          $21.79          $15.03
                   FEHB 2                  $16.38          $16.38          $16.38          $16.38          $16.38
                   FEHB 3                  $11.93          $19.96           $9.12          $14.63          $20.20
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 30
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                         IN              KS               KY                LA           MA
                   Medicare                $13.66           $13.66          $13.66          $13.66         $13.66
                   Medicaid                $13.42           $13.41          $13.66          $10.03         $10.13
 83036             FEHB 1                  $11.45           $11.45          $11.45          $11.45         $11.45
                   FEHB 2                  $12.35           $12.35          $12.35          $12.35         $12.35
                   FEHB 3                   $8.50           $27.08           $8.91          $10.43         $14.40

                   Medicare                 $9.12            $9.12           $9.12           $7.55           $9.12
                   Medicaid                 $8.95            $5.20           $9.12           $5.54           $6.76
 83540             FEHB 1                   $7.80            $7.51           $8.40           $9.30           $7.51
                   FEHB 2                   $5.12            $5.12           $5.12           $5.12           $5.12
                   FEHB 3                   $5.68            $9.49           $4.11           $5.76           $9.97

                   Medicare                $12.30           $12.30          $12.30          $12.30         $12.30
                   Medicaid                $12.08           $12.18          $12.30           $9.04          $9.12
 83550             FEHB 1                   $9.95            $9.57           $9.57          $14.04          $9.76
                   FEHB 2                  $12.28           $12.28          $13.50          $12.28         $12.28
                   FEHB 3                   $7.66           $15.34           $5.77          $12.30         $13.06

                   Medicare               $40.85     $43.37/$47.77         $47.77          $47.77          $47.77
                   Medicaid               $40.56            $23.10         $47.77          $38.97          $35.42
 83880             FEHB 1                 $47.65            $45.87         $53.47          $68.43          $47.65
                   FEHB 2                $142.00           $149.10        $136.60         $100.80          $45.50
                   FEHB 3                 $25.43            $38.07         $22.45          $16.00          $49.70

                   Medicare                $58.08          $58.08           $58.08          $58.08         $58.08
                   Medicaid                $57.04          $23.10           $58.08          $42.65         $43.06
 83970             FEHB 1                  $58.08          $45.27           $45.27          $47.03         $45.27
                   FEHB 2                  $44.63          $44.63           $44.63          $44.63         $44.63
                   FEHB 3                  $34.85         $116.76           $28.37          $41.07         $61.22

                   Medicare                $25.89          $25.89           $25.89          $25.89         $25.89
                   Medicaid                $25.42          $21.61           $25.89          $19.00         $19.19
 84153             FEHB 1                  $18.03          $18.73           $18.73          $18.73         $18.73
                   FEHB 2                  $20.48          $20.48           $20.48          $20.48         $20.48
                   FEHB 3                  $21.85          $51.19           $12.00          $19.76         $28.72

                   Medicare                $23.64          $23.64           $23.64          $23.64         $23.64
                   Medicaid                $23.21          $15.75           $23.64          $17.36         $17.53
 84443             FEHB 1                  $15.55          $16.16           $24.90          $16.16         $16.16
                   FEHB 2                  $15.36          $15.36           $15.36          $23.00         $15.36
                   FEHB 3                  $14.72          $27.00           $11.32          $18.05         $25.77

                   Medicare                $10.94     $6.54/$10.94          $10.94          $10.94         $10.94
                   Medicaid                $10.74            $5.00          $10.94           $8.03          $8.11
 85025             FEHB 1                   $7.67            $7.67          $13.58          $12.38          $7.67
                   FEHB 2                   $5.03            $5.03          $11.14          $20.41          $8.00
                   FEHB 3                   $7.60            $9.55           $5.18          $11.52         $11.53

                   Medicare                 $5.53           $5.53            $5.53           $5.53           $5.53
                   Medicaid                 $5.43           $5.25            $5.53           $4.07           $4.10
 85610             FEHB 1                   $4.22           $4.38            $6.86           $6.37           $4.38
                   FEHB 2                   $6.18           $6.08            $5.62          $10.32           $5.67
                   FEHB 3                   $3.44          $12.11            $4.31           $3.79           $5.84

                   Medicare                $11.36          $11.36           $11.36          $11.36         $11.36
                   Medicaid                $11.16          $10.50           $11.36           $8.34          $8.42
 87086             FEHB 1                  $24.50          $24.50           $24.50          $24.50         $20.00
                   FEHB 2                  $10.45          $10.45           $10.45          $10.45         $10.72
                   FEHB 3                   $7.95          $21.68            $8.54           $8.68         $12.60
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 31
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                        MD               ME               MI                MN           MO
                   Medicare                $11.91          $11.91          $11.91          $11.91          $11.91
                   Medicaid                 $9.01           $7.02           $9.31          $11.91          $11.12
 80048             FEHB 1                   $9.23           $9.58           $9.41          $24.86           $9.58
                   FEHB 2                   $4.98           $8.09           $4.98          $33.30           $4.98
                   FEHB 3                   $9.30          $12.69           $8.68          $13.94          $10.28

                   Medicare                $14.87          $14.87          $14.65          $14.87          $14.87
                   Medicaid                $11.25           $8.76          $11.43          $14.87          $13.73
 80053             FEHB 1                  $11.12          $19.58          $11.56          $29.32          $11.56
                   FEHB 2                   $6.19           $6.19           $6.19          $41.40           $6.19
                   FEHB 3                   $9.76          $14.61          $15.19          $17.41          $12.39

                   Medicare                $17.17          $18.85          $17.98          $18.85          $18.85
                   Medicaid                $12.98          $17.10          $12.53          $18.85          $17.61
 80061             FEHB 1                  $13.18          $25.27          $13.69          $43.50          $13.69
                   FEHB 2                   $8.20           $8.20           $8.20          $52.20           $8.20
                   FEHB 3                  $12.36          $20.34          $11.78          $22.07          $16.64

                   Medicare                 $4.45           $4.45           $4.45           $4.45            $4.45
                   Medicaid                 $3.38           $3.42           $2.64           $4.45            $4.17
 81001             FEHB 1                   $2.64           $6.42           $2.74          $13.95            $2.74
                   FEHB 2                   $3.80           $5.90           $4.97          $14.18            $3.80
                   FEHB 3                   $2.92           $4.81           $2.92           $6.40            $4.99

                   Medicare                 $3.60           $3.60           $3.60           $3.60     $2.94/$3.60
                   Medicaid                 $2.72           $3.42           $1.10           $3.60           $1.83
 81002             FEHB 1                   $5.50           $4.82           $6.50           $9.11           $4.28
                   FEHB 2                   $2.24           $4.03           $4.27           $5.71           $3.96
                   FEHB 3                   $2.80           $3.52           $3.73           $4.21           $3.36

                   Medicare                 $3.16           $3.16           $3.16           $3.16     $2.94/$3.16
                   Medicaid                 $2.39           $3.18           $1.10           $3.16           $1.83
 81003             FEHB 1                   $2.20           $4.24           $3.22          $10.93           $3.33
                   FEHB 2                   $2.67           $3.54           $3.50           $9.00           $3.47
                   FEHB 3                   $2.50           $3.09           $3.28           $3.70           $3.29

                   Medicare                $41.66          $41.66          $41.66          $41.66          $41.66
                   Medicaid                $31.50          $41.36          $32.53          $41.66          $38.90
 82306             FEHB 1                  $34.86          $66.56          $36.21          $43.88          $34.86
                   FEHB 2                  $57.73          $57.73          $57.73         $105.45          $57.73
                   FEHB 3                  $18.61          $42.04          $27.30          $59.78          $33.39

                   Medicare                 $5.78           $7.28           $6.54           $7.22           $7.28
                   Medicaid                 $4.19           $5.40           $3.42           $7.22           $5.50
 82570             FEHB 1                   $6.02           $5.91           $6.02          $19.40           $6.02
                   FEHB 2                  $12.75          $13.03          $10.85          $13.03          $13.03
                   FEHB 3                   $4.82           $7.14           $4.29           $8.45           $5.85

                   Medicare                $21.21          $21.05          $21.21          $21.21          $21.21
                   Medicaid                $16.03          $11.16          $10.92          $21.21          $19.81
 82607             FEHB 1                  $16.03          $16.65          $16.65          $38.00          $16.65
                   FEHB 2                  $19.71          $19.71          $21.56          $19.71          $19.71
                   FEHB 3                  $12.21          $20.68          $13.90          $30.44          $17.66

                   Medicare                $19.17          $19.17          $19.17          $19.17          $19.17
                   Medicaid                $14.49          $18.90          $14.55          $19.17          $17.90
 82728             FEHB 1                  $15.03          $25.69          $15.61          $55.80          $15.61
                   FEHB 2                  $16.20             N/A          $16.38          $43.54          $16.38
                   FEHB 3                  $12.57          $18.80          $12.56          $27.51          $15.97
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 32
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                       MD              ME              MI             MN                 MO
                   Medicare               $13.10          $13.66         $13.66          $13.66            $13.66
                   Medicaid                $9.91          $11.25          $8.64          $13.66            $12.75
 83036             FEHB 1                 $11.02          $18.31         $11.45          $35.20            $11.02
                   FEHB 2                 $12.35          $12.35         $12.35          $37.80            $12.35
                   FEHB 3                  $8.96          $13.65          $8.95          $15.99            $13.56

                   Medicare                $9.12           $9.12          $9.12           $9.12              $9.12
                   Medicaid                $6.90           $5.40          $3.96           $9.12              $8.51
 83540             FEHB 1                  $7.51           $7.80          $7.80          $21.60              $7.80
                   FEHB 2                  $5.12             N/A          $5.12          $28.37              $5.12
                   FEHB 3                  $4.07           $8.60          $5.98          $13.08              $7.59

                   Medicare               $12.30          $12.30         $12.13          $12.30            $12.30
                   Medicaid                $8.93           $6.47          $6.36          $12.30             $7.70
 83550             FEHB 1                  $9.57           $9.95          $9.57          $21.24             $9.95
                   FEHB 2                 $10.38             N/A         $12.28          $34.20            $12.28
                   FEHB 3                  $8.06          $12.06          $7.96          $17.65             $9.86

                   Medicare               $47.77          $47.77         $47.77          $47.77    $39.27/$43.37
                   Medicaid               $36.12          $21.34         $37.70          $47.77           $38.99
 83880             FEHB 1                 $48.99          $63.75         $72.25             N/A           $45.87
                   FEHB 2                 $90.46             N/A            N/A         $174.60          $148.75
                   FEHB 3                 $42.75          $51.85         $31.30          $55.91           $42.75

                   Medicare               $58.08          $58.08         $58.08          $58.08            $58.08
                   Medicaid               $43.92          $52.65         $45.35          $58.08            $51.15
 83970             FEHB 1                 $45.27          $80.72         $46.15          $61.18            $46.75
                   FEHB 2                 $44.63             N/A         $44.63         $230.91            $44.63
                   FEHB 3                 $38.10          $58.58         $38.06          $83.36            $60.46

                   Medicare               $25.89          $25.89         $25.89          $25.89            $25.89
                   Medicaid               $19.58          $25.42         $19.42          $25.89            $24.17
 84153             FEHB 1                 $18.73          $34.76         $18.73          $47.00            $18.73
                   FEHB 2                 $20.48          $20.48         $20.48         $135.18            $20.48
                   FEHB 3                 $16.98          $26.11         $16.96          $30.00            $21.56

                   Medicare               $23.64          $23.64         $23.64          $23.64            $23.64
                   Medicaid               $17.88          $20.52          $8.27          $23.64            $22.08
 84443             FEHB 1                 $16.16          $31.68         $16.16          $62.00            $16.16
                   FEHB 2                 $15.36          $15.36         $15.36          $65.70            $15.36
                   FEHB 3                 $15.51          $23.84         $15.49          $27.67            $22.08

                   Medicare               $10.94          $10.94         $10.93          $10.94            $10.94
                   Medicaid                $8.28          $10.74          $4.96          $10.94            $10.22
 85025             FEHB 1                  $7.67          $14.66         $11.52          $22.45             $7.67
                   FEHB 2                  $5.03           $7.13         $10.56          $34.38            $11.73
                   FEHB 3                  $7.17          $10.86          $8.12          $15.71            $12.00

                   Medicare                $5.30           $5.53          $5.53           $5.53              $5.53
                   Medicaid                $4.00           $4.59          $3.64           $5.53              $3.85
 85610             FEHB 1                  $4.38           $7.41          $5.66          $12.63              $4.38
                   FEHB 2                  $5.12           $6.18          $6.15          $17.57              $6.08
                   FEHB 3                  $3.63           $5.58          $5.53           $6.46              $6.00

                   Medicare               $11.36          $11.36         $11.36          $11.36     $9.84/$11.36
                   Medicaid                $8.59           $5.98          $4.42          $11.36            $9.77
 87086             FEHB 1                 $26.16          $20.00         $21.38          $18.11           $24.50
                   FEHB 2                  $9.59          $12.38         $10.45          $31.50           $10.45
                   FEHB 3                 $10.13          $12.43          $7.45          $16.31            $9.11
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 33
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                        MS               MT               NC                ND           NE
                   Medicare                $11.91          $11.91          $11.28          $11.91          $11.91
                   Medicaid                $10.91          $11.91          $10.19          $12.12          $11.91
 80048             FEHB 1                  $17.35          $21.23          $12.55          $52.11          $18.01
                   FEHB 2                  $32.00          $24.84           $7.56          $21.29          $25.82
                   FEHB 3                  $31.00          $18.18           $7.28          $25.86          $20.60

                   Medicare                $14.87          $14.87          $11.89          $14.87          $14.87
                   Medicaid                $13.63          $14.86          $10.74          $15.14          $14.87
 80053             FEHB 1                  $21.69          $29.32          $12.98          $35.18          $22.17
                   FEHB 2                  $25.00          $31.02           $6.19          $36.90          $28.80
                   FEHB 3                  $47.00          $22.71           $5.35          $32.31          $25.74

                   Medicare                $18.85          $18.85          $18.85          $17.17          $18.85
                   Medicaid                $17.27          $18.85          $17.04          $17.48          $18.85
 80061             FEHB 1                  $19.00          $43.50          $18.72          $81.08          $27.62
                   FEHB 2                  $21.00          $32.97           $8.20          $46.85          $34.00
                   FEHB 3                  $42.00          $28.79           $8.48          $37.30          $32.62

                   Medicare                 $4.45           $4.45            $4.45          $4.45            $4.45
                   Medicaid                 $4.09           $4.45            $4.03          $4.54            $4.45
 81001             FEHB 1                  $11.00          $11.63            $3.65         $25.91            $6.33
                   FEHB 2                  $11.00           $9.30            $4.02         $13.85            $6.80
                   FEHB 3                  $10.00           $6.81            $6.14          $9.69            $7.72

                   Medicare                 $3.60           $3.60            $3.60          $3.60            $3.60
                   Medicaid                 $3.29           $3.60            $3.25          $3.66            $3.60
 81002             FEHB 1                   $9.00           $6.00            $7.65          $9.11            $5.78
                   FEHB 2                   $9.00           $7.68            $3.65         $11.00            $7.80
                   FEHB 3                   $9.88           $5.49            $5.36          $7.81            $6.42

                   Medicare                 $3.16           $3.16            $3.16           $3.16           $3.16
                   Medicaid                 $2.90           $3.16            $2.86           $3.22           $3.16
 81003             FEHB 1                   $6.45           $9.11            $4.86             N/A           $5.20
                   FEHB 2                   $9.11           $4.40            $3.65           $8.10           $6.86
                   FEHB 3                   $7.68           $4.83            $4.71           $6.87           $5.67

                   Medicare                $41.66          $41.66          $41.66          $41.66          $41.66
                   Medicaid                $38.16          $41.65          $37.64          $42.40          $41.66
 82306             FEHB 1                  $90.00         $105.00          $41.36             N/A          $58.73
                   FEHB 2                  $93.00          $80.23          $57.73         $107.45          $83.00
                   FEHB 3                  $85.00          $63.60          $18.61         $100.00          $72.08

                   Medicare                 $6.54           $7.28           $7.28           $7.28           $7.28
                   Medicaid                 $5.99           $7.27           $6.58           $7.41           $7.28
 82570             FEHB 1                   $7.67          $16.17           $7.23          $16.17           $6.75
                   FEHB 2                  $16.00          $16.00          $10.13          $19.80          $13.03
                   FEHB 3                  $14.00          $11.12           $4.70          $15.81          $12.60

                   Medicare                $21.21          $21.21          $21.21          $21.21          $21.21
                   Medicaid                $19.43          $21.21          $19.16          $21.59          $21.21
 82607             FEHB 1                  $26.33          $33.70          $21.06          $45.00          $31.90
                   FEHB 2                  $47.00          $34.00          $23.17          $53.00          $31.86
                   FEHB 3                  $45.00          $32.39           $9.48          $46.08          $36.70

                   Medicare                $19.17          $19.17          $19.17          $19.17          $19.17
                   Medicaid                $17.56          $19.17          $17.32          $19.51          $19.17
 82728             FEHB 1                  $15.61          $46.50          $20.19          $46.50          $22.19
                   FEHB 2                  $37.00          $16.38          $16.38          $19.03          $40.00
                   FEHB 3                  $41.00          $29.27           $8.56          $41.63          $33.17
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 34
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                        MS               MT               NC                ND           NE
                   Medicare                $13.66          $13.66          $13.66          $13.66          $13.66
                   Medicaid                $12.51          $13.66          $12.34          $13.90          $13.66
 83036             FEHB 1                  $11.45          $29.33          $13.42          $59.23          $21.84
                   FEHB 2                  $26.00          $29.00          $12.35          $32.40          $25.00
                   FEHB 3                  $29.00          $20.85           $8.96          $29.66          $23.63

                   Medicare                 $9.12           $6.10            $9.12          $9.12           $9.12
                   Medicaid                 $8.35           $6.10            $8.24          $9.28           $9.12
 83540             FEHB 1                  $16.25             N/A            $9.60         $18.00           $8.15
                   FEHB 2                  $13.47           $5.12            $5.12         $21.60           $5.12
                   FEHB 3                  $19.00           $9.32            $4.07         $19.81          $15.78

                   Medicare                $12.30           $7.63          $12.30          $12.30          $12.30
                   Medicaid                $11.27           $7.63          $11.11          $12.52          $12.31
 83550             FEHB 1                  $31.00             N/A          $12.95          $17.70          $14.23
                   FEHB 2                  $12.28          $12.28          $12.21          $12.21          $12.28
                   FEHB 3                  $28.00          $11.66           $5.49          $26.72          $21.28

                   Medicare                $47.77          $47.77          $47.77          $47.77          $47.77
                   Medicaid                $43.76          $47.77          $43.16          $48.62          $47.77
 83880             FEHB 1                  $50.32             N/A          $56.00             N/A             N/A
                   FEHB 2                 $117.99             N/A          $66.53             N/A          $98.86
                   FEHB 3                  $42.75          $72.93          $42.75         $105.83          $82.65

                   Medicare                $58.08          $58.08          $58.08          $58.08          $58.08
                   Medicaid                $53.21          $58.08          $52.48          $59.12          $58.08
 83970             FEHB 1                  $45.27             N/A          $61.18             N/A          $51.90
                   FEHB 2                 $136.00             N/A          $43.25             N/A         $126.03
                   FEHB 3                 $139.00          $88.68          $31.72         $128.68         $100.50

                   Medicare                $22.12          $25.89          $25.89          $25.89          $25.89
                   Medicaid                $20.26          $25.89          $23.39          $26.34          $25.89
 84153             FEHB 1                  $21.85          $38.25          $25.70          $80.80          $39.19
                   FEHB 2                  $49.00          $45.00          $20.48          $59.40          $47.06
                   FEHB 3                  $50.00          $39.51          $12.36          $56.21          $44.78

                   Medicare                $22.89          $23.64          $22.93          $23.64          $23.64
                   Medicaid                $20.97          $23.64          $20.72          $24.06          $23.64
 84443             FEHB 1                  $22.43          $52.50          $24.90          $52.50          $26.91
                   FEHB 2                  $47.00          $51.00          $15.36          $61.15          $38.73
                   FEHB 3                  $46.00          $36.09          $10.32          $51.35          $40.90

                   Medicare                $10.94          $10.94          $10.94          $10.94           $6.54
                   Medicaid                $10.03          $10.93           $9.88          $11.14           $6.54
 85025             FEHB 1                  $21.00          $18.71          $11.52          $22.45          $17.42
                   FEHB 2                  $25.00          $22.81          $10.29          $31.05          $14.19
                   FEHB 3                  $21.00          $16.71           $9.68          $23.77          $11.32

                   Medicare                 $5.53           $5.53            $5.53          $5.53           $5.53
                   Medicaid                 $5.06           $5.53            $5.00          $5.62           $5.53
 85610             FEHB 1                  $13.00           $8.78            $6.76         $48.88           $9.24
                   FEHB 2                  $13.00           $8.90            $5.43         $15.30          $11.97
                   FEHB 3                  $14.00           $8.43            $5.62         $11.99           $9.55

                   Medicare                $11.36          $11.36          $11.36          $11.36          $11.36
                   Medicaid                $10.41          $11.35          $10.26          $11.57          $11.36
 87086             FEHB 1                  $21.00          $28.00          $19.06          $25.28          $16.41
                   FEHB 2                  $21.00          $11.28           $8.46          $86.45          $20.00
                   FEHB 3                  $23.00          $17.36          $10.15          $24.69          $19.67
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 35
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                       NH               NJ            NM               NV                NY
                   Medicare               $11.91          $11.91         $11.91          $11.91     $8.99/$11.28
                   Medicaid                $7.27           $9.53         $11.91           $5.92            $7.25
 80048             FEHB 1                  $9.23           $9.30         $10.10           $9.41            $9.58
                   FEHB 2                  $4.98           $4.98         $25.16           $4.98            $4.98
                   FEHB 3                 $12.69          $10.00          $8.31           $5.68            $6.85

                   Medicare               $14.87          $13.45         $14.87          $14.87    $13.45/$14.87
                   Medicaid                $9.08          $10.76         $14.87           $7.39           $10.00
 80053             FEHB 1                 $11.12          $11.12         $11.12          $11.12           $11.56
                   FEHB 2                  $6.19           $6.19         $31.41           $6.19            $6.19
                   FEHB 3                 $16.50          $11.30         $15.14           $8.85            $8.48

                   Medicare               $18.85          $18.85         $17.27          $18.85            $18.85
                   Medicaid               $11.51          $15.08         $17.27           $9.36             $6.04
 80061             FEHB 1                 $13.18          $13.18         $13.18          $13.18            $13.69
                   FEHB 2                  $8.20           $8.20         $36.49           $8.20             $8.20
                   FEHB 3                 $19.43          $16.12         $14.59          $11.21            $11.74

                   Medicare                $4.45           $4.45           $4.45          $4.45              $4.45
                   Medicaid                $2.72           $3.56           $4.45          $2.22              $4.00
 81001             FEHB 1                  $2.64           $2.64           $4.76          $2.64              $2.64
                   FEHB 2                  $5.27           $3.80           $9.40          $3.80              $3.80
                   FEHB 3                  $4.27           $3.74           $3.77          $2.65              $2.78

                   Medicare                $3.60           $3.60           $3.60          $3.60              $3.60
                   Medicaid                $2.20           $2.88           $3.60          $1.79              $2.00
 81002             FEHB 1                  $5.52           $4.00           $5.36          $2.50              $5.00
                   FEHB 2                  $4.03           $3.74           $7.61          $2.66              $9.96
                   FEHB 3                  $3.57           $3.21           $3.66          $1.67              $2.52

                   Medicare                $2.51           $3.16           $3.16          $3.16              $3.16
                   Medicaid                $1.53           $2.53           $3.16          $1.58              $2.00
 81003             FEHB 1                  $3.49           $2.11           $2.19          $2.11              $2.20
                   FEHB 2                  $2.85           $2.85           $6.09          $2.85              $3.61
                   FEHB 3                  $2.40           $2.70           $3.22          $1.50              $2.51

                   Medicare               $41.66          $41.66         $41.66          $41.24    $40.85/$41.66
                   Medicaid               $25.44          $33.33         $41.66          $20.47           $36.60
 82306             FEHB 1                 $34.86          $34.86         $34.86          $43.88           $34.86
                   FEHB 2                 $57.73          $57.73         $87.96          $57.73           $57.73
                   FEHB 3                 $46.21          $34.99         $29.09          $19.38           $25.93

                   Medicare                $7.28           $7.28          $7.07           $7.28       $6.15/$7.28
                   Medicaid                $4.45           $5.82          $7.07           $3.62             $5.03
 82570             FEHB 1                  $5.79           $5.79          $6.02           $5.79             $5.79
                   FEHB 2                 $13.03          $13.03         $14.92          $13.03            $13.03
                   FEHB 3                  $6.97           $6.22          $4.94           $4.33             $4.54

                   Medicare               $16.89          $21.21         $21.21          $21.21    $20.67/$21.21
                   Medicaid               $10.31          $16.97         $21.21          $10.53           $12.50
 82607             FEHB 1                 $16.03          $16.65         $16.03          $16.03           $16.03
                   FEHB 2                 $19.71          $19.71         $44.78          $19.71           $19.71
                   FEHB 3                 $15.69          $17.82         $14.81          $12.62           $13.21

                   Medicare               $19.17          $19.17         $19.17          $19.17            $19.17
                   Medicaid               $11.71          $15.34         $19.17           $9.52            $14.75
 82728             FEHB 1                 $15.03          $15.07         $20.93          $15.03            $15.34
                   FEHB 2                 $16.38          $16.38         $40.48          $16.38            $16.38
                   FEHB 3                 $14.20          $16.10         $13.38          $11.40            $11.93
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 36
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                       NH               NJ            NM               NV                NY
                   Medicare               $13.66          $13.66         $13.66          $13.66            $13.66
                   Medicaid                $8.34          $10.93         $13.66           $6.79            $10.64
 83036             FEHB 1                 $11.02          $11.02         $11.02          $11.02            $11.45
                   FEHB 2                 $12.35          $12.35         $17.00          $12.35            $12.35
                   FEHB 3                 $14.20          $11.47         $11.54           $8.12             $8.50

                   Medicare                $9.12           $9.12          $9.12           $8.02              $9.12
                   Medicaid                $5.57           $7.30          $9.12           $3.99              $5.03
 83540             FEHB 1                  $7.51           $7.51          $8.40           $7.51              $7.51
                   FEHB 2                  $5.12           $5.12         $19.24           $5.12              $5.12
                   FEHB 3                  $9.24           $6.50          $6.37           $5.42              $5.68

                   Medicare               $12.30          $12.30         $12.30           $9.85            $12.30
                   Medicaid                $7.51           $9.84         $12.30           $4.89             $5.03
 83550             FEHB 1                  $9.57           $9.81          $9.57           $9.57             $9.95
                   FEHB 2                 $12.13          $12.28         $31.45          $12.28            $12.28
                   FEHB 3                  $8.76          $10.33          $8.59           $7.32             $7.66

                   Medicare               $47.77          $47.77         $47.77          $47.77    $44.12/$47.77
                   Medicaid               $29.17          $38.22         $47.77          $23.72           $34.07
 83880             FEHB 1                    N/A          $47.43            N/A          $46.76           $45.87
                   FEHB 2                    N/A         $149.30        $121.55         $164.91           $58.38
                   FEHB 3                 $52.99          $42.75         $30.46          $28.41           $34.03

                   Medicare               $58.08          $58.08         $58.08          $58.08            $58.08
                   Medicaid               $35.47          $46.46         $58.08          $28.84            $52.32
 83970             FEHB 1                 $45.27          $45.27         $45.27          $45.27            $47.03
                   FEHB 2                 $44.63          $44.63        $147.90          $44.63            $44.63
                   FEHB 3                 $52.83          $48.79         $49.07          $34.54            $36.16

                   Medicare               $20.43          $25.89         $25.89          $25.89            $25.89
                   Medicaid               $12.47          $20.71         $25.89          $12.86            $24.35
 84153             FEHB 1                 $18.03          $18.03         $18.03          $18.03            $18.73
                   FEHB 2                 $20.48          $20.48         $54.65          $20.48            $20.48
                   FEHB 3                 $28.31          $21.75         $18.07          $15.39            $16.11

                   Medicare               $23.64          $23.64         $23.64          $23.64            $23.64
                   Medicaid               $14.44          $18.91         $23.64          $11.74             $9.00
 84443             FEHB 1                 $15.55          $16.16         $15.55          $15.55            $16.16
                   FEHB 2                 $15.36          $15.36         $49.90          $15.36            $15.36
                   FEHB 3                 $25.85          $19.86         $19.97          $14.06            $16.08

                   Medicare               $10.94          $10.94         $10.94          $10.94    $10.88/$10.94
                   Medicaid                $6.68           $8.75         $10.94           $5.43            $3.17
 85025             FEHB 1                  $7.67           $7.67          $7.67           $7.60            $8.60
                   FEHB 2                  $5.03           $5.03         $23.09           $5.03           $10.97
                   FEHB 3                 $11.09           $9.36         $11.14           $5.37            $8.06

                   Medicare                $5.53           $5.53           $5.53          $5.53              $5.53
                   Medicaid                $3.37           $4.42           $5.53          $2.75              $3.91
 85610             FEHB 1                  $4.38           $4.38           $5.74          $4.22              $4.38
                   FEHB 2                  $5.65           $5.12           $9.35          $5.12              $5.56
                   FEHB 3                  $5.59           $4.72           $5.62          $2.68              $3.47

                   Medicare                $9.03          $11.36         $11.25          $11.36            $11.36
                   Medicaid                $5.51           $9.09         $11.25           $5.64             $8.15
 87086             FEHB 1                 $20.00          $22.48         $27.50          $24.50            $22.48
                   FEHB 2                 $15.00          $10.45         $16.15          $10.45            $10.45
                   FEHB 3                 $12.43           $9.54          $7.85           $6.75             $7.07
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 37
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                        OH               OK               OR                PA             RI
                   Medicare                $10.33          $11.91          $11.91          $11.91          $11.91
                   Medicaid                 $8.47          $10.95           $8.97           $9.36           $7.10
 80048             FEHB 1                   $9.23           $9.23          $13.01           $9.23             N/A
                   FEHB 2                   $4.98           $4.98          $17.45           $4.98           $4.98
                   FEHB 3                   $3.47          $16.56          $14.20           $8.48          $12.36

                   Medicare                $14.87          $14.87          $14.87          $14.87          $14.87
                   Medicaid                $14.17          $13.67          $11.20          $11.69           $8.86
 80053             FEHB 1                  $11.12          $11.12          $15.14          $11.12             N/A
                   FEHB 2                   $6.19           $6.19          $21.80           $6.19           $6.19
                   FEHB 3                   $5.00          $20.68          $18.17          $10.60          $15.44

                   Medicare                $17.89          $18.85          $18.85          $18.85          $18.85
                   Medicaid                $17.04          $17.33          $14.20          $14.00          $11.23
 80061             FEHB 1                  $13.18          $13.69          $19.30          $13.18             N/A
                   FEHB 2                   $8.20           $8.20          $27.63           $8.20           $8.20
                   FEHB 3                   $6.02          $26.21          $23.03          $21.62          $19.57

                   Medicare                 $4.45           $4.45            $4.45           $4.45           $4.45
                   Medicaid                 $4.24           $4.09            $3.36           $4.37           $2.66
 81001             FEHB 1                   $2.64           $4.34            $9.30           $2.74             N/A
                   FEHB 2                   $3.80           $2.78            $6.81           $3.80           $3.80
                   FEHB 3                   $3.90           $6.20            $5.45           $3.18           $4.63

                   Medicare                 $3.32           $3.30            $3.60           $3.60           $3.60
                   Medicaid                 $3.16           $3.03            $2.71           $3.57           $2.14
 81002             FEHB 1                   $2.36           $3.34            $5.10           $4.11             N/A
                   FEHB 2                   $2.26           $2.14            $5.27           $4.39           $3.99
                   FEHB 3                   $2.77           $4.59            $4.39           $2.56           $3.57

                   Medicare                 $3.16           $3.16            $3.16           $3.16           $2.69
                   Medicaid                 $3.01           $2.90            $2.38           $3.10           $1.60
 81003             FEHB 1                   $1.87           $2.91            $3.67           $2.19             N/A
                   FEHB 2                   $1.74           $1.88            $4.64           $2.85           $2.85
                   FEHB 3                   $1.06           $4.40            $3.86           $2.25           $2.67

                   Medicare                $41.66          $41.66          $33.77          $41.66          $41.66
                   Medicaid                $39.68          $38.29          $25.43          $40.91          $24.82
 82306             FEHB 1                  $34.86          $36.21          $36.21          $34.86             N/A
                   FEHB 2                  $57.73          $57.73          $57.73          $57.73          $57.73
                   FEHB 3                  $14.00          $57.90          $34.37          $29.68          $43.22

                   Medicare                 $7.28           $7.28           $7.28           $7.28           $7.28
                   Medicaid                 $6.94           $6.69           $5.48           $7.15           $4.34
 82570             FEHB 1                   $5.79           $5.79           $7.95           $5.79             N/A
                   FEHB 2                   $6.77           $6.15          $12.65          $13.03          $10.35
                   FEHB 3                   $2.45          $10.12           $7.41           $5.19           $7.23

                   Medicare                $21.21          $21.21          $21.21          $21.21          $21.21
                   Medicaid                $20.21          $19.49          $15.98          $13.00          $12.64
 82607             FEHB 1                  $16.03          $16.03          $16.65          $16.03             N/A
                   FEHB 2                  $19.71          $19.71          $29.12          $19.71          $19.71
                   FEHB 3                   $7.13          $29.48          $21.59          $15.11          $22.01

                   Medicare                $19.17          $19.17          $12.31          $19.17          $19.17
                   Medicaid                $18.27          $17.62           $9.27          $12.00          $11.42
 82728             FEHB 1                  $15.03          $15.03          $15.03          $15.61             N/A
                   FEHB 2                  $16.38          $16.38          $17.88          $16.38          $29.19
                   FEHB 3                   $6.44          $26.64          $12.53          $13.66          $19.89
                                                                                            continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 38
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                        OH               OK               OR                PA             RI
                   Medicare                $13.66          $12.16          $13.66          $13.66          $12.31
                   Medicaid                $13.02          $11.18          $10.29           $7.00           $7.33
 83036             FEHB 1                  $11.02          $11.02          $13.05          $11.02             N/A
                   FEHB 2                  $12.35          $12.35          $20.02          $12.35          $12.35
                   FEHB 3                   $9.00          $16.91          $16.68           $9.73          $12.77

                   Medicare                 $9.12           $7.84            $9.12           $9.12          $9.12
                   Medicaid                 $8.68           $7.21            $6.87           $8.45          $5.43
 83540             FEHB 1                   $7.51           $7.51            $7.80           $7.80            N/A
                   FEHB 2                   $5.12           $5.12            $9.12           $5.12         $10.06
                   FEHB 3                   $3.06          $10.89            $9.28           $6.50          $9.46

                   Medicare                $12.30          $12.30          $12.30          $12.30          $12.30
                   Medicaid                $11.72          $11.31           $9.26           $5.00           $7.33
 83550             FEHB 1                   $9.57           $9.57           $9.95           $9.95             N/A
                   FEHB 2                  $12.28          $12.28          $12.28          $12.28          $16.14
                   FEHB 3                   $4.13          $18.32          $12.52           $8.76          $12.77

                   Medicare                $47.77          $47.77          $47.77          $47.77          $47.77
                   Medicaid                $46.01          $43.91          $35.98          $37.94          $28.46
 83880             FEHB 1                  $45.87          $45.87          $56.92          $45.87             N/A
                   FEHB 2                  $65.55         $142.00         $140.28         $156.60             N/A
                   FEHB 3                  $16.06          $57.00          $48.62          $34.03          $47.43

                   Medicare                $58.08          $58.08          $58.08          $58.08          $58.08
                   Medicaid                $57.04          $53.38          $43.75          $42.50          $34.60
 83970             FEHB 1                  $45.27          $45.27          $47.03          $47.03             N/A
                   FEHB 2                  $44.63          $40.99          $44.63          $44.63             N/A
                   FEHB 3                  $19.53          $80.74          $59.12          $41.38          $60.27

                   Medicare                $25.89          $25.89          $25.89          $25.89          $25.80
                   Medicaid                $24.66          $23.80          $19.49          $24.36          $15.37
 84153             FEHB 1                  $18.03          $18.03          $27.26          $18.03             N/A
                   FEHB 2                  $20.48          $20.48          $37.08          $20.48          $20.48
                   FEHB 3                   $8.70          $35.98          $26.34          $18.44          $26.77

                   Medicare                $23.64          $23.64          $23.64          $23.64          $23.64
                   Medicaid                $22.51          $21.73          $17.80          $23.21          $14.08
 84443             FEHB 1                  $15.55          $15.65          $24.90          $15.55             N/A
                   FEHB 2                  $15.36          $15.36          $33.68          $15.36          $15.36
                   FEHB 3                   $7.95          $32.86          $28.16          $16.84          $24.53

                   Medicare                $10.94          $10.94          $10.94          $10.94          $10.94
                   Medicaid                $10.42          $10.06           $8.24           $6.00           $6.52
 85025             FEHB 1                   $7.38           $7.38          $11.95           $7.67             N/A
                   FEHB 2                   $5.03           $5.03          $16.04           $5.03           $8.19
                   FEHB 3                   $3.68          $15.20          $13.37           $7.80          $11.35

                   Medicare                 $5.53           $5.53            $5.53           $5.53           $5.53
                   Medicaid                 $5.27           $5.08            $4.16           $4.00           $3.29
 85610             FEHB 1                   $4.22           $4.22            $6.04           $4.22             N/A
                   FEHB 2                   $4.11           $5.12            $8.09           $5.12           $5.12
                   FEHB 3                   $5.13           $7.69            $6.74           $3.93           $5.74

                   Medicare                $11.36          $11.36          $11.36          $11.36           $7.34
                   Medicaid                $10.83          $10.44           $8.56           $8.00           $4.37
 87086             FEHB 1                  $10.80          $24.50          $14.00          $24.50             N/A
                   FEHB 2                   $8.46           $9.59          $10.45          $10.45          $12.38
                   FEHB 3                  $10.16          $15.79          $11.57           $8.10           $7.61
                                                                                            continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 39
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                         SC              SD               TN                TX            UT
                   Medicare                $11.91          $11.91           $9.71          $11.91          $11.91
                   Medicaid                $10.63          $11.70             N/A          $11.64           $7.20
 80048             FEHB 1                  $11.83          $13.01           $9.70           $9.58           $9.58
                   FEHB 2                   $7.56          $30.40          $19.08           $8.49           $5.19
                   FEHB 3                  $10.00          $14.50           $9.88           $5.50          $12.12

                   Medicare                $13.45          $14.87          $12.13          $14.87          $14.87
                   Medicaid                $12.01          $14.61             N/A          $14.53           $8.99
 80053             FEHB 1                  $11.56          $20.68          $11.56          $11.56          $11.56
                   FEHB 2                   $6.19          $28.80          $20.49           $6.19           $6.19
                   FEHB 3                  $10.52          $18.00          $12.35           $8.80          $15.14

                   Medicare                $13.79          $18.85          $18.85          $18.85          $18.85
                   Medicaid                $12.31          $18.51             N/A          $18.42          $18.97
 80061             FEHB 1                  $13.69          $26.21          $13.69          $13.69          $13.69
                   FEHB 2                   $8.20          $48.45          $29.00           $8.20           $8.20
                   FEHB 3                  $14.98          $23.00          $19.19          $11.15          $19.19

                   Medicare                 $4.44           $4.45           $4.45            $4.45           $4.45
                   Medicaid                 $3.96           $4.37             N/A            $4.36           $4.30
 81001             FEHB 1                   $2.74          $14.73           $6.96            $2.74           $3.58
                   FEHB 2                   $4.52          $20.70          $10.93            $3.99           $2.78
                   FEHB 3                   $5.00           $5.50           $4.54            $3.36           $4.54

                   Medicare                 $3.60           $3.60            $3.60           $3.60           $3.60
                   Medicaid                 $3.22           $3.54              N/A           $3.51           $3.48
 81002             FEHB 1                   $4.46           $4.49            $6.73           $4.39           $2.75
                   FEHB 2                   $3.57           $6.07            $9.15           $4.50           $2.24
                   FEHB 3                   $5.50           $4.50            $3.66           $2.38           $3.66

                   Medicare                 $3.16           $3.16            $3.16           $3.16           $3.16
                   Medicaid                 $2.82           $3.10              N/A           $3.09           $3.06
 81003             FEHB 1                   $3.14           $4.50            $4.94           $3.00           $2.42
                   FEHB 2                   $3.47           $8.32            $6.20           $3.14           $1.97
                   FEHB 3                   $3.00           $4.00            $3.22           $2.09           $3.22

                   Medicare                $41.66          $41.66          $41.66          $38.24          $41.66
                   Medicaid                $37.17          $40.91             N/A          $37.36          $40.37
 82306             FEHB 1                  $36.21          $43.88          $36.21          $36.21          $34.86
                   FEHB 2                  $58.01          $93.93          $59.50          $57.73          $57.73
                   FEHB 3                  $30.00          $51.00          $29.68          $22.96          $42.40

                   Medicare                 $7.28           $7.28           $7.28           $7.28           $5.78
                   Medicaid                 $6.50           $7.15             N/A           $7.11           $4.63
 82570             FEHB 1                   $6.02           $7.55           $6.15           $6.02           $6.02
                   FEHB 2                  $10.14             N/A          $14.30          $13.03          $10.85
                   FEHB 3                   $6.28           $9.00           $7.41           $4.31           $5.88

                   Medicare                $21.21          $21.21          $21.21          $21.21          $21.21
                   Medicaid                $18.93          $20.83             N/A          $20.73          $20.55
 82607             FEHB 1                  $16.03          $69.97          $16.65          $16.65          $16.03
                   FEHB 2                  $20.00          $47.70          $28.00          $19.71          $19.71
                   FEHB 3                  $20.00          $26.00          $21.59          $12.55          $21.59

                   Medicare                $19.17          $19.17          $19.17          $19.17          $19.17
                   Medicaid                $17.11          $18.83             N/A          $18.73          $18.59
 82728             FEHB 1                  $15.03          $31.43          $20.19          $15.61          $15.07
                   FEHB 2                  $16.38          $21.24          $30.00          $16.38          $16.38
                   FEHB 3                   $9.50          $23.00          $19.51          $11.34          $19.51
                                                                                            continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 40
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                                 State
                   Insurer
 Code                                         SC              SD               TN                TX            UT
                   Medicare                $13.66          $13.10          $13.66          $13.66          $13.66
                   Medicaid                $12.19          $12.18             N/A          $13.34          $13.23
 83036             FEHB 1                  $11.45          $20.25          $11.45          $11.45          $11.02
                   FEHB 2                  $12.35          $34.20          $22.81          $12.35           $5.95
                   FEHB 3                  $12.00          $16.00          $13.90           $8.08          $13.90

                   Medicare                 $9.12           $8.73           $9.12            $9.12           $9.12
                   Medicaid                 $8.14           $8.12             N/A            $8.91           $7.86
 83540             FEHB 1                   $7.51           $9.00           $7.80            $7.80           $7.51
                   FEHB 2                   $5.12          $17.10          $14.00            $5.12           $5.12
                   FEHB 3                   $4.35          $10.50           $9.12            $5.48           $9.28

                   Medicare                $12.30          $12.02          $12.30          $12.30          $12.30
                   Medicaid                $10.98          $11.18             N/A          $12.02          $12.60
 83550             FEHB 1                   $9.57           $8.85          $10.38           $9.95           $9.95
                   FEHB 2                  $12.28          $26.60          $20.00          $12.28          $10.38
                   FEHB 3                   $5.49          $14.50           $8.76           $7.39          $12.52

                   Medicare                $47.77          $47.77          $47.77          $47.77          $47.77
                   Medicaid                $42.62          $47.43             N/A          $46.68             N/A
 83880             FEHB 1                  $45.87             N/A          $51.00          $45.87          $47.65
                   FEHB 2                  $44.45          $92.49          $98.00         $142.00             N/A
                   FEHB 3                  $42.75          $58.00          $42.75           $5.50          $48.62

                   Medicare                $58.08          $58.08          $58.08          $58.08          $58.08
                   Medicaid                $51.83          $57.04             N/A          $56.76          $56.29
 83970             FEHB 1                  $45.27          $40.44          $46.15          $47.03          $45.27
                   FEHB 2                  $44.63         $117.00          $70.80          $44.63          $25.31
                   FEHB 3                  $37.49          $71.00          $41.38          $34.35          $59.12

                   Medicare                $25.89          $25.89          $25.89          $25.89          $25.89
                   Medicaid                $23.09          $25.42             N/A          $25.29          $25.70
 84153             FEHB 1                  $18.73          $35.98          $18.73          $18.73          $18.73
                   FEHB 2                  $20.48          $56.79          $43.45          $20.48          $20.48
                   FEHB 3                  $30.00          $32.00          $26.34          $15.54          $26.34

                   Medicare                $23.64          $23.64          $23.64          $23.64          $23.64
                   Medicaid                $21.10          $23.21             N/A          $23.10          $22.91
 84443             FEHB 1                  $16.16          $32.86          $16.16          $16.16          $15.86
                   FEHB 2                  $15.36          $48.60          $36.00          $15.36          $15.36
                   FEHB 3                  $15.03          $29.00          $24.06          $13.98          $24.06

                   Medicare                $10.43          $10.94          $10.94          $10.94            $7.44
                   Medicaid                 $9.31          $10.74             N/A          $10.69            $6.66
 85025             FEHB 1                  $10.36          $17.40          $17.11           $9.77            $7.38
                   FEHB 2                  $10.36          $26.08          $21.48           $9.77            $4.77
                   FEHB 3                   $9.77          $13.50          $11.14           $6.57            $7.57

                   Medicare                 $5.53           $5.53            $5.53           $5.53           $5.53
                   Medicaid                 $4.94           $5.43              N/A           $5.40           $5.37
 85610             FEHB 1                   $5.49           $7.69            $8.44           $5.66           $4.34
                   FEHB 2                   $5.49          $23.63            $9.33           $6.00           $3.44
                   FEHB 3                   $6.00           $6.50            $5.62           $5.50           $5.62

                   Medicare                $11.36          $11.36          $11.36          $11.36          $11.36
                   Medicaid                $10.14          $11.16             N/A          $11.11           $9.22
 87086             FEHB 1                  $24.50          $11.95          $24.50          $24.50          $16.50
                   FEHB 2                  $10.45          $28.05          $10.45          $10.45           $9.59
                   FEHB 3                  $10.04          $14.00          $10.04           $6.72          $11.57
                                                                                            continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 41
                  Medicare CLFS, State Medicaid Program Fee Schedule, and
                  FEHB Program Median Payment Rates for Selected Laboratory
                  Test Codes (Continued)
 HCPCS                                                               State
                  Insurer
 Code                                    VA            VT           WA              WI            WV          WY
                  Medicare            $11.91        $11.91         $8.99        $11.91       $11.91        $10.82
                  Medicaid            $11.12        $19.17         $6.95        $11.82       $10.72         $9.67
 80048            FEHB 1               $9.23           N/A        $11.07        $74.80       $15.15       $165.75
                  FEHB 2               $4.98           N/A         $8.93        $74.80        $4.98         $4.98
                  FEHB 3               $9.30        $17.90         $8.54        $13.94       $14.85        $16.00

                  Medicare            $14.87        $14.87        $12.01        $14.87       $14.87        $14.87
                  Medicaid            $13.88        $14.46         $9.29        $14.77       $13.38        $13.29
 80053            FEHB 1              $11.12        $10.34        $13.11        $58.20       $14.38        $15.14
                  FEHB 2               $6.19        $11.25        $11.92        $56.25        $6.19         $6.19
                  FEHB 3               $9.76        $23.97        $11.92        $17.41       $18.45        $30.00

                  Medicare            $18.85        $15.45        $18.85        $18.85       $18.85        $15.67
                  Medicaid            $17.58        $14.99        $14.58        $18.70       $16.97        $14.00
 80061            FEHB 1              $13.18        $10.74        $18.72        $74.46       $13.69        $19.51
                  FEHB 2               $8.20        $14.35        $18.72        $99.45        $8.20         $8.20
                  FEHB 3              $12.36        $29.33        $18.85        $30.32       $29.25        $32.00

                  Medicare             $4.45         $4.45         $4.45         $4.45           $4.45       $3.60
                  Medicaid             $3.76         $4.27         $3.45         $4.41           $4.01       $3.24
 81001            FEHB 1               $2.66        $19.74         $4.70        $28.05           $4.43       $3.66
                  FEHB 2               $3.80           N/A         $4.63        $32.20           $3.80       $5.54
                  FEHB 3               $3.50         $8.85         $4.43         $5.22           $5.40       $8.00

                  Medicare             $3.60         $2.51         $3.60         $3.60           $3.31      $2.89
                  Medicaid             $3.36         $2.44         $2.78         $3.57           $2.98      $2.58
 81002            FEHB 1               $2.14         $3.38         $6.00         $7.65           $3.29     $17.10
                  FEHB 2               $2.14         $3.93         $3.57        $13.80           $6.11     $10.00
                  FEHB 3               $3.15         $6.85         $3.60         $4.03           $4.50     $10.00

                  Medicare             $3.16         $2.49         $3.16         $3.16           $3.16      $2.89
                  Medicaid             $2.95         $2.35         $2.45         $3.13           $2.84      $2.60
 81003            FEHB 1               $2.19         $6.40         $3.77         $9.72           $3.33      $2.53
                  FEHB 2               $2.67           N/A         $3.18        $23.80           $5.74     $11.32
                  FEHB 3               $2.70         $6.80         $3.16         $3.84           $4.05      $4.00

                  Medicare            $41.66        $41.66        $41.66        $41.66       $41.66        $41.66
                  Medicaid            $35.67        $40.52        $32.22        $41.32       $37.49        $37.22
 82306            FEHB 1              $34.86           N/A        $36.88        $36.21       $43.88           N/A
                  FEHB 2              $57.73        $57.73        $57.00       $105.45       $57.73        $57.73
                  FEHB 3              $18.61        $46.21        $39.58        $42.40       $51.75        $53.00

                  Medicare             $7.28         $7.28         $7.28         $7.28        $7.28          $7.28
                  Medicaid             $6.79         $7.06         $5.63         $7.22        $6.55          $6.51
 82570            FEHB 1               $5.79         $6.47         $8.50        $10.85        $6.02          $6.02
                  FEHB 2               $6.15         $7.67        $10.13        $25.30       $13.03            N/A
                  FEHB 3               $5.70         $8.22         $6.92         $8.87        $9.00          $9.10

                  Medicare            $21.21        $14.67        $21.21        $21.21       $21.21        $16.09
                  Medicaid            $19.79        $14.21        $16.41        $21.04       $19.09        $14.38
 82607            FEHB 1              $16.65        $16.03        $21.59        $19.58       $21.06        $81.00
                  FEHB 2              $19.71        $19.71        $21.06        $71.60       $19.71           N/A
                  FEHB 3               $9.48        $22.03        $20.15        $23.75       $26.10        $21.59

                  Medicare            $19.17        $19.17        $19.17        $19.17       $19.17        $19.17
                  Medicaid            $17.89        $18.65        $14.83        $19.02       $17.25        $17.13
 82728            FEHB 1              $15.61           N/A        $20.19        $52.57       $19.17        $19.86
                  FEHB 2              $16.38           N/A        $19.03       $140.60       $21.79        $16.20
                  FEHB 3              $12.57        $25.03        $18.21        $42.86       $23.85        $29.27
                                                                                             continued on next page




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                 42
                     Medicare CLFS, State Medicaid Program Fee Schedule, and
                     FEHB Program Median Payment Rates for Selected Laboratory
                     Test Codes (Continued)
 HCPCS                                                                            State
                     Insurer
 Code                                           VA                VT             WA                WI            WV           WY
                     Medicare                $13.66           $13.66          $13.66           $13.66          $13.66       $10.69
                     Medicaid                $12.75           $13.25          $10.56           $13.55          $12.29        $9.55
 83036               FEHB 1                  $11.02           $11.02          $14.00           $32.73          $13.80       $12.38
                     FEHB 2                  $12.35           $35.00          $13.56           $63.75          $12.35       $12.35
                     FEHB 3                  $10.50           $20.53          $13.66           $16.63          $17.10       $18.00

                     Medicare                 $9.12            $9.12            $9.12           $9.12           $9.12        $9.12
                     Medicaid                 $8.50            $8.80            $7.05           $9.04           $8.21        $8.15
 83540               FEHB 1                   $7.80              N/A            $7.80          $24.00           $8.97          N/A
                     FEHB 2                   $5.12              N/A            $9.05          $37.96           $5.12        $2.10
                     FEHB 3                   $5.97           $13.69            $8.66          $10.67          $11.25        $9.32

                     Medicare                $12.30           $12.30          $12.30           $12.30          $12.30       $12.30
                     Medicaid                $11.48           $11.94           $9.52           $12.20          $11.07       $10.99
 83550               FEHB 1                   $9.95              N/A           $9.95           $28.50          $12.30          N/A
                     FEHB 2                  $10.38              N/A          $12.28           $57.00          $16.00        $9.45
                     FEHB 3                   $8.06           $18.48          $11.69           $14.40          $15.30       $15.38

                     Medicare                $47.77           $47.77          $47.77           $47.77         $47.77        $47.77
                     Medicaid                $45.06           $26.14          $36.95           $47.43         $42.99        $42.69
 83880               FEHB 1                  $45.87              N/A          $67.55          $180.24         $50.32           N/A
                     FEHB 2                  $87.73              N/A          $49.56          $122.88        $176.80           N/A
                     FEHB 3                  $42.75              N/A          $45.38           $52.29         $44.03        $36.00

                     Medicare                $58.08           $58.08          $58.08           $58.08          $58.08       $58.08
                     Medicaid                $54.19           $56.47          $44.93           $57.61          $52.27       $51.90
 83970               FEHB 1                  $61.18              N/A          $66.35           $49.47          $58.08          N/A
                     FEHB 2                  $44.63              N/A          $57.67          $263.15          $95.00       $44.63
                     FEHB 3                  $31.72           $87.27          $55.18           $59.12          $72.00       $73.90

                     Medicare                $25.89           $25.89          $25.89           $25.89          $25.89       $25.89
                     Medicaid                $23.28           $20.92          $20.02           $25.67          $23.30       $23.13
 84153               FEHB 1                  $18.03              N/A          $27.26           $77.52          $18.73       $26.34
                     FEHB 2                  $20.48           $28.79          $25.70          $114.75          $20.48       $54.00
                     FEHB 3                  $16.98           $38.89          $24.60           $39.51          $31.95       $40.00

                     Medicare                $23.64           $23.64          $23.56           $23.64          $23.64       $23.09
                     Medicaid                $22.05           $22.92          $18.22           $23.44          $21.28       $20.64
 84443               FEHB 1                  $16.16           $26.97          $24.90           $93.50          $21.93       $28.75
                     FEHB 2                  $15.36           $26.39          $21.81          $105.40          $15.36       $15.36
                     FEHB 3                  $15.51           $29.34          $22.38           $28.78          $29.25       $36.09

                     Medicare                $10.94           $10.94          $10.94           $10.94          $10.94       $10.94
                     Medicaid                $10.00           $10.63           $8.47           $10.85           $9.85        $9.85
 85025               FEHB 1                   $7.67            $7.60          $12.10           $52.70          $11.19       $13.62
                     FEHB 2                   $5.03           $10.86          $10.86           $60.35           $5.03       $18.78
                     FEHB 3                   $8.50           $16.43          $10.94           $12.81          $13.50       $24.00

                     Medicare                 $5.53            $5.53            $5.53           $5.53           $5.53        $4.47
                     Medicaid                 $5.16            $5.32            $4.27           $5.48           $4.98        $4.00
 85610               FEHB 1                   $4.22            $7.18            $5.93          $25.22           $5.49       $18.22
                     FEHB 2                   $4.67           $22.53            $6.00          $57.00           $8.15       $17.76
                     FEHB 3                   $4.95            $8.30            $5.53           $6.46           $6.75        $8.00

                     Medicare                $11.36            $8.12          $11.36           $11.36          $11.36        $5.29
                     Medicaid                 $9.50            $7.84           $8.79           $11.27          $10.22        $4.76
 87086               FEHB 1                  $26.16           $28.56          $20.70           $59.50          $12.49        $8.68
                     FEHB 2                   $9.59              N/A          $11.28           $58.50          $10.45       $10.45
                     FEHB 3                  $10.13           $12.19          $10.79           $13.31          $13.95        $8.25
Source: Office of Inspector General analysis of Medicare CLFS, State Medicaid Program, and FEHB plan payment rates, 2012.




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                                43
                     APPENDIX D
                     Potential Savings to Medicare
                                                                           Number
                                                2011            2011       of Tests     Amount of
                                                                                                        Percentage
 HCPCS*                                   Number of        Medicare-           With      Potential
                Description                                                                              Savings to
 Code26                                     Allowed         Allowed       Potential     Savings to
                                                                                                          Medicare
                                               Tests        Amount              for      Medicare
                                                                           Savings
                Metabolic panel, total
 80048                                         8,870,790    $87,715,544    7,537,056      $36,412,622               42%
                calcium
                Comprehensive
 80053                                        27,406,336   $315,878,919   24,785,107     $130,632,849               41%
                metabolic panel
 80061          Lipid panel                   20,620,917   $300,263,670   18,497,996     $125,993,031               42%
                Urinalysis, automated,
 81001                                         6,804,619    $30,263,393    6,406,217       $9,801,294               32%
                with microscopy
                Urinalysis,
 81002          nonautomated,                  4,312,499    $15,380,015    4,045,779       $4,427,415               29%
                without microscopy
                Urinalysis, automated,
 81003                                         5,078,609    $16,012,775    4,673,129       $4,383,224               27%
                without microscopy
 82306          Vitamin D, 25 hydroxy          5,394,421   $221,597,882    5,343,831      $87,398,016               39%
                Assay of urine
 82570                                         4,649,643    $33,541,369    4,616,456      $10,457,972               31%
                creatinine
 82607          Vitamin B-12                   3,363,543    $71,298,574    3,329,444      $25,252,596               35%

 82728          Assay of ferritin              2,401,360    $45,904,070    2,309,044      $15,613,616               34%
                Glycosylated
 83036                                        12,678,817   $172,653,909   12,377,783      $51,406,983               30%
                hemoglobin test
 83540          Assay of iron                  2,625,017    $23,249,999    2,511,258      $10,256,188               44%

 83550          Iron binding test              2,043,112    $24,606,097    2,020,049       $9,228,580               38%

 83880          Natriuretic peptide            1,079,558    $50,927,315    1,054,424      $15,970,434               31%
                Assay of
 83970                                         1,154,872    $67,030,516    1,143,748      $22,934,465               34%
                parathormone
                Assay of prostate-
 84153                                         3,616,338    $93,492,483    3,545,187      $32,784,887               35%
                specific antigen, total
                Thyroid stimulating
 84443                                        14,761,102   $348,014,395   14,465,072     $140,148,947               40%
                hormone
*Healthcare Common Procedure Coding System.                                                        continued on next page




                     26
                       HCPCS Level 1 numerical codes are identical to CPT codes and are used by CMS
                     when services and procedures involve Medicare beneficiaries (e.g., 70405). The five
                     character codes and descriptions included in this report are obtained from Current
                     Procedural Terminology (CPT®), copyright 2011 by the American Medical
                     Association (AMA). CPT is developed by the AMA as a listing of descriptive terms
                     and five character identifying codes and modifiers for reporting medical services
                     and procedures. Any use of CPT outside of this report should refer to the most
                     current version of the Current Procedural Terminology available from
                     AMA. Applicable FARS/DFARS apply.


 Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)               44
                        Potential Savings to Medicare (Continued)
                                                                                            Number
                                                      2011                  2011            of Tests     Amount of
                                                                                                                        Percentage
 HCPCS                                          Number of              Medicare-                With      Potential
                  Description                                                                                            Savings to
 Code                                             Allowed               Allowed            Potential     Savings to
                                                                                                                          Medicare
                                                     Tests              Amount                   for      Medicare
                                                                                            Savings
                  Complete blood count
                  with automated
 85025                                             30,827,609         $333,380,573          29,163,289   $136,848,356            41%
                  differential white blood
                  cell count
 85610            Prothrombin time                 20,291,205         $111,952,080          18,942,447    $24,637,107            22%
                  Urine culture colony
 87086                                               4,703,518         $53,236,384           4,642,330    $15,296,087            29%
                  count
    Total                                         182,683,885       $2,416,399,964        171,409,646    $909,884,674            38%
Dollar amounts are rounded to the nearest $1. 

Source: Centers for Medicare & Medicaid Services, National Claims History Part B Carrier File, 2012.





 Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)                             45
                   APPENDIX E
                   Agency Comments


                                                                                        Centers tor Medicare & Medicaid Services

                                                                              · - - - - - - - -····--··-- ­
                                                                                        Administrator
                                                                                        Washington, DC 20201




             DATE:         APR 2 6 2013

             TO:           Daniel R. Levinson
                           Inspector General

             FROM:         Matil;rn "':avenner
                                               /S/
                           Actilllg Ad'ministrator

             SUBJECT:       Office M' IJY;pector General (DIG) Draft Report: Comparison of Laboratory Test
                            Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-I 1-000 I0)


             Thank you for the opportunity to review and comment on this OlG draft report. 1be Centers for
             Medicare & Medicaid Services (CMS) appreciates OIG ' s effort to examine the laboratory
             payment rates for different payers. OIG collected payment data from 50 state Medicaid
             programs and three Federal Employees Health Benefits (FE! !B) plans that pay for laboratory
             tests on a fcc-for-service basis. OIG requested the payment rates for 20 laboratory tests and for
             each test compared Medicare paid claims with the state Medicaid program fee schedule amount
             and FEHB plan median claim payment amounts. State Medicaid programs and FEHB plans
             were surveyed to determine how their laboratory test fee schedules or payment rates were
             formulated, whether a copayment was charged to the patient, and whether laboratory test charges
             counted towards a member's deductible.

             The OIG found that in 20 II, Medicare paid between 18 and 30 percent more than other insurers
             for 20 high-volume and/or high-expenditure laboratory tests. State Medicaid programs and
             FEHB plans usc the Medicare clinical laboratory fee schedule as a basis for establishing their
             0\1\>n fee schedules and payment rates, although most pay Jess. However, unlike Medicare, FEHB
             programs incorporate factors such as competitor information, changes in technology used in
             perfom1ing laboratory tests, and provider requests in their payment rates. Some state Medicaid
             programs and FEHB plans required copayments for laboratory tests which, in effect, lowered the
             costs oflaboratory tests for the insurer. CMS's responses to OIG's recommendations arc
             discussed below.

              OJG Recommendation I
             The 010 recommends that CMS seek legislation that would allow CMS to establish lower
             payment rates for lab tests.

              CMS Response

              The CMS appreciates OIG's recommendation and the valuable work reflected in this report.
              CMS is currently exploring whether it has authority under the current statute to revise payment~
              for clinical diagnostic laboratory services consistent with the OIG's recommendation.




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-0001 0)                                    47
                  Agency Comments (Continued)




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)   47
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Brian T. Whitley, Acting
                  Regional Inspector General for Evaluation and Inspections in the Kansas
                  City regional office.
                  Tricia Fields served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff from the Kansas City regional office who
                  conducted the study include Michael P. Barrett and Teresa Dailey. Other
                  regional and central office staff who contributed include Kevin Farber,
                  Scott Horning, Scott Manley, Brian Pattison, Debra Roush, and Mandy
                  Walz.




Comparing Lab Test Payment Rates: Medicare Could Achieve Substantial Savings (OEI-07-11-00010)   48
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
